<html>
<title> - GOVERNMENT PERFORMANCE AND RESULTS ACT: STATUS AND PROSPECTS OF THE RESULTS ACT</title>
<body><pre>[House Hearing, 105 Congress]
[From the U.S. Government Printing Office]



 
  GOVERNMENT PERFORMANCE AND RESULTS ACT: STATUS AND PROSPECTS OF THE 
                              RESULTS ACT
=======================================================================

                                HEARING

                               before the

                 SUBCOMMITTEE ON GOVERNMENT MANAGEMENT,
                      INFORMATION, AND TECHNOLOGY

                                 of the

                              COMMITTEE ON
                           GOVERNMENT REFORM
                             AND OVERSIGHT
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED FIFTH CONGRESS

                             FIRST SESSION

                               __________

                              JUNE 3, 1997

                               __________

                           Serial No. 105-55

                               __________

Printed for the use of the Committee on Government Reform and Oversight






                       U. S. GOVERNMENT PRINTING OFFICE
45-062                          WASHINGTON : 1997
___________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpr.gov  Phone: toll free (866) 512-1800; (202) 512-1800  
Fax: (202) 512-2250 Mail: Stop SSOP, Washington, DC 20402-0001






              COMMITTEE ON GOVERNMENT REFORM AND OVERSIGHT

                     DAN BURTON, Indiana, Chairman
BENJAMIN A. GILMAN, New York         HENRY A. WAXMAN, California
J. DENNIS HASTERT, Illinois          TOM LANTOS, California
CONSTANCE A. MORELLA, Maryland       ROBERT E. WISE, Jr., West Virginia
CHRISTOPHER SHAYS, Connecticut       MAJOR R. OWENS, New York
STEVEN SCHIFF, New Mexico            EDOLPHUS TOWNS, New York
CHRISTOPHER COX, California          PAUL E. KANJORSKI, Pennsylvania
ILEANA ROS-LEHTINEN, Florida         GARY A. CONDIT, California
JOHN M. McHUGH, New York             CAROLYN B. MALONEY, New York
STEPHEN HORN, California             THOMAS M. BARRETT, Wisconsin
JOHN L. MICA, Florida                ELEANOR HOLMES NORTON, Washington, 
THOMAS M. DAVIS, Virginia                DC
DAVID M. McINTOSH, Indiana           CHAKA FATTAH, Pennsylvania
MARK E. SOUDER, Indiana              ELIJAH E. CUMMINGS, Maryland
JOE SCARBOROUGH, Florida             DENNIS J. KUCINICH, Ohio
JOHN B. SHADEGG, Arizona             ROD R. BLAGOJEVICH, Illinois
STEVEN C. LaTOURETTE, Ohio           DANNY K. DAVIS, Illinois
MARSHALL ``MARK'' SANFORD, South     JOHN F. TIERNEY, Massachusetts
    Carolina                         JIM TURNER, Texas
JOHN E. SUNUNU, New Hampshire        THOMAS H. ALLEN, Maine
PETE SESSIONS, Texas                 HAROLD E. FORD, Jr., Tennessee
MICHAEL PAPPAS, New Jersey                       ------
VINCE SNOWBARGER, Kansas             BERNARD SANDERS, Vermont 
BOB BARR, Georgia                        (Independent)
ROB PORTMAN, Ohio
                      Kevin Binger, Staff Director
                 Daniel R. Moll, Deputy Staff Director
                       Judith McCoy, Chief Clerk
                 Phil Schiliro, Minority Staff Director
                                 ------                                

   Subcommittee on Government Management, Information, and Technology

                   STEPHEN HORN, California, Chairman
PETE SESSIONS, Texas                 CAROLYN B. MALONEY, New York
THOMAS M. DAVIS, Virginia            PAUL E. KANJORSKI, Pennsylvania
JOE SCARBOROUGH, Florida             MAJOR R. OWENS, New York
MARSHALL ``MARK'' SANFORD, South     ROD R. BLAGOJEVICH, Illinois
    Carolina                         DANNY K. DAVIS, Illinois
JOHN E. SUNUNU, New Hampshire
ROB PORTMAN, Ohio

                               Ex Officio

DAN BURTON, Indiana                  HENRY A. WAXMAN, California
          J. Russell George, Staff Director and Chief Counsel
                         Mark Uncapher, Counsel
                          Andrea Miller, Clerk
           David McMillen, Minority Professional Staff Member
          Mark Stephenson, Minority Professional Staff Member






                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on June 3, 1997.....................................     1
Statement of:
    Koskinen, John, Deputy Director for Management, Office of 
      Management and Budget......................................     7
    Stevens, L. Nye, Director, Federal Management and Workforce 
      Issues, General Government Division, U.S. General 
      Accounting Office, accompanied by Chris Mihm, Acting 
      Associate Director for Federal Management Issues...........    20
Letters, statements, etc., submitted for the record by:
    Davis, Hon. Danny K., a Representative in Congress from the 
      State of Illinois, prepared statement of...................     4
    Koskinen, John, Deputy Director for Management, Office of 
      Management and Budget, prepared statement of...............    12
    Radanovich, Hon. George P., a Representative in Congress from 
      the State of California, prepared statement of.............     6
    Stevens, L. Nye, Director, Federal Management and Workforce 
      Issues, General Government Division, U.S. General 
      Accounting Office, prepared statement of...................    24


  GOVERNMENT PERFORMANCE AND RESULTS ACT: STATUS AND PROSPECTS OF THE 
                              RESULTS ACT

                              ----------                              


                         TUESDAY, JUNE 3, 1997

                  House of Representatives,
Subcommittee on Government Management, Information, 
                                    and Technology,
              Committee on Government Reform and Oversight,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 9:30 a.m., in 
room 2154, Rayburn House Office Building, Hon. Stephen Horn 
(chairman of the subcommittee) presiding.
    Present: Representatives Horn, Sessions, Davis of Virginia, 
and Davis of Illinois.
    Also present: Representative Radanovich.
    Staff present: Russell George, staff director/counsel; Jane 
Cobb, full committee professional staff member; Matt Ryan and 
John L. Hynes, professional staff members; Andrea Miller, 
clerk; and Mark Stephenson, minority professional staff member.
    Mr. Horn. A quorum being present, the Subcommittee on 
Government Management, Information, and Technology will come to 
order.
    This is a third in the series of oversight hearings on the 
Government Performance and Results Act of 1993, commonly known 
as the Results Act. Governments around the world are struggling 
to provide services more efficiently, effectively, and at a 
lower cost to their taxpayers.
    Over the past decade, Federal management reform efforts in 
the United States have stressed the need to measure results as 
viewed by the client, the American taxpayer. As we have learned 
in previous hearings, the Government Performance and Results 
Act has enormous potential to focus the energies of the Federal 
Government, making programs more efficient and effective and 
restoring confidence in Government. In essence, the act 
requires Federal agencies to ask and to repeatedly answer some 
very basic questions: What is the agency's mission? What are 
its goals? And how will the agency achieve them? How can the 
agency's performance be measured? How should that information 
be used to make improvements?
    The Results Act envisions a major overhaul of Federal 
activities and it therefore requires vigilant oversight. In 
order to establish one aspect of this oversight, the act 
directed the Office of Management and Budget and the General 
Accounting Office to assess and report on the ability of the 
agencies to implement Results Act requirements.
    The act specifies that the Office of Management and Budget, 
OMB, shall report on the benefits, cost and usefulness of the 
plans, and reports prepared by the pilot agencies. These pilots 
are essential to effective implementation of the act. From them 
we must experiment with and learn about three aspects of 
Federal management reform: performance goals, managerial 
accountability and flexibility, and performance budgeting.
    The law called for a minimum of 10 performance measurement 
pilot agencies. But instead of 10 or another relatively small 
manageable number, we have 72. This is troublesome. It looks 
very much as though the executive branch attention to this law 
is being spread too thin. The pilots were meant to provide 
concrete experiences with success and failure in the 
implementation of this act. I am afraid that in this case 
quantity has become the enemy of quality.
    OMB was also directed to identify significant difficulties 
experienced by pilot agencies in preparing plans and reports 
and to set forth any recommended changes to be made in the 
Results Act. OMB issued its report on May 19th. The General 
Accounting Office issued its comprehensive analysis of the 
pilot agencies yesterday.
    The Results Act provides a unique opportunity to view the 
Federal Government on a comprehensive basis. In this context, 
the executive branch should seek to identify and set the 
priorities for the services that must be provided, the 
activities that must be carried out, and the measurement of the 
results that are achieved.
    Congress considers the statutory requirements and timetable 
of the Results Act extremely important. The act was 
deliberately crafted to allow experimentation before mandating 
requirements. For example, the pilot stage allowed agencies to 
ask for relief from burdensome regulations in return for a 
promise of greater accountability. It is unclear if this stage 
has been implemented.
    Also of concern is the quality and reliability of the 
information provided to Congress in the performance reports. In 
order to succeed, performance reports must be based from 
information derived from accurate data and can be independently 
verified. The data must be comparable not only from year to 
year, but also between agencies performing similar functions. 
Such data must also be consistently accumulated and reported. 
If there are too many goals and objectives, the risk is that 
few of those goals and objectives will be obtained. If there 
are too many performance measures to be tracked, both the 
agencies and the congressional committees will sink under the 
weight of data and the Results Act will have failed.
    There is no shortage of failures in the dust bin of Federal 
management initiatives. From zero based budgeting to managing 
by objectives, these previous efforts have failed because there 
was little commitment to make them work. As chairman of this 
subcommit- tee, I am afraid we are heading down the same road 
with the Re- sults Act. I am surprised and disappointed by 
OMB's scattered re- port. No doubt it follows the letter of the 
law. It is less clear to me that what we are seeing so far 
follows the spirit of the law.
    It is worth recalling what we are about here. The 
leadership in Congress has made an extraordinary commitment to 
this effort. We are serious about changing the management 
culture of the Federal Government. The culture needs to be much 
more service oriented. The highest levels of the legislative 
and executive branches of the Federal Government need to work 
in partnership to identify and to solve the problems involved 
in implementing the Results Act. Only then will we be on the 
way to attaining the goals of the act and only then will the 
public believe the changes are finally taking place in the 
culture of the Federal Government.
    The Results Act presents a unique opportunity to change 
from a compliance-based system of accountability to a results-
based system. If it works well, we will be able to ensure that 
the Federal Government's stewardship over resources and its 
services to the American people are efficient and affordable. 
If we are to be successful, a sample of the customers of 
Federal programs, the taxpayers, will need to be consulted in 
the development and measurement of goals and objectives.
    This morning, we will hear from John Koskinen, who serves 
as Deputy Director for Management at the Office of Management 
and Budget and L. Nye Stevens, who is Director of Federal 
Management and Workforce Issues at the General Accounting 
Office. Each will report on his office's review of pilot agency 
efforts to implement the principles of the Results Act.
    We welcome both of you, but I first want to yield to the 
gentleman from Texas, Mr. Sessions, for any opening that he 
might have.
    Mr. Sessions. Good morning, Mr. Chairman, and thank you so 
much. I also would like to thank Mr. Koskinen, Mr. Stevens, and 
Mr. Mihm for being here this morning. And as you all know, I 
view the Results Act as being critical to the success of 
Government and I am dedicated to that success also of seeing it 
implemented properly.
    We are here today I hope to learn more about the progress 
agencies are making in consultation with Congress and other 
stakeholders in preparing their strategic programs. Both OMB 
and GAO have prepared reports on this status, and I know that 
my staff and many of the committee staff, under the dedicated 
leadership of the majority leader and also our Chairman Horn, 
are working hard to ensure those strategic plans are up to 
snuff. The responsibility for the success of the Results Act 
falls upon a lot of people.
    But I believe that today we are here because we have to 
call on those people who were at the apex of the executive 
branch to point us in the right direction, to give us 
information, and to evaluate the process, and the progress that 
we are making to come to this critical stage. I hope that today 
we will be able to ascertain where we are and how closely we 
are getting to that target, to hit the center of the target. 
And so I am delighted to have each one of you here today.
    Mr. Chairman, as always, I support and concur with the 
words that you have given. This is important and this is 
serious business. Thank you, sir.
    Mr. Horn. Well, I thank you.
    [The prepared statement of Hon. Danny K. Davis and Hon. 
George P. Radanovich follow:]
[GRAPHIC] [TIFF OMITTED] 45062.001

[GRAPHIC] [TIFF OMITTED] 45062.002

[GRAPHIC] [TIFF OMITTED] 45062.003

    Mr. Horn. The gentlemen before us know the usual routine. 
If you would rise, raise your right hands.
    [Witnesses sworn.]
    Mr. Horn. We will just simply go down the agenda and in 
alphabetical order, John Koskinen, Deputy Director for 
Management, Office of Management and Budget, one of our most 
frequent witnesses before this committee. Welcome, John.

  STATEMENT OF JOHN KOSKINEN, DEPUTY DIRECTOR FOR MANAGEMENT, 
                OFFICE OF MANAGEMENT AND BUDGET

    Mr. Koskinen. Thank you, Mr. Chairman. I'm happy to be 
here. I still am looking--is this on?
    Mr. Horn. Is that microphone on?
    Mr. Koskinen. Let me borrow your microphone. Oh, I see.
    Mr. Sessions. You are catching on very early.
    Mr. Koskinen. You can tell I've been here before.
    Mr. Horn. You do know they are part of the legislative 
branch. Their microphones work, but go ahead.
    Mr. Koskinen. We'll talk to you about this in the budget 
process during infrastructure support.
    I'm pleased to appear before the committee this morning to 
discuss implementation of the Government Performance and 
Results Act of 1993 and to provide an assessment of our 
progress to date in meeting its major requirements.
    This committee was one of the leaders in the passage of the 
act, and we look forward to continuing to work with you and the 
entire Congress as implementation proceeds.
    As a Government, we face major challenges. This is a time 
of great fiscal constraint. Tight budget resources demand that 
every dollar is counted. During a period of much public 
skepticism about the Government's ability to do things right, 
the Government must not only work better, but be shown as 
working better, if we are to regain public confidence. GPRA, if 
successfully implemented, will help this effort to improve 
public confidence in the efforts of its Government.
    To be successful, implementation will also have to be a 
bipartisan effort. Recently, the House majority leader and 
other Members of the congressional leadership have facilitated 
the consultation process GPRA requires between Congress and the 
agencies by coordinating meetings between agencies and the 
appropriate congressional staff to discuss the agencies' 
strategic plans. We look forward to continuing this cooperative 
consultive process during the next few weeks.
    Let me now summarize the conclusions of our report on GPRA 
and discuss those aspects of the act and its implementation 
that are our most immediate focus.
    Looking at strategic plans, the act requires that Federal 
agencies submit a strategic plan to Congress and OMB not later 
than September 30, 1997. There is no more important element in 
performance-based management than strategic plans. These plans 
set the agency's strategic course, its overall programmatic and 
policy goals, indicate how these goals will be achieved, and 
are the foundation and framework for implementing all other 
parts of GPRA.
    The act requires agencies, when preparing their strategic 
plan, to consult with Congress and solicit and consider the 
views and suggestions of stakeholders, customers, and other 
potentially interested or affected parties. OMB has issued 
strong guidance supporting congressional consultation.
    The administration is currently undertaking a strategic 
assessment of agency goals and commitments. A focus of that 
assessment is the agencies' implementation of GPRA and the 
preparation of the strategic plans and the annual performance 
plans that are due in September.
    As a general matter, the agency plans reflect a serious 
effort and allow us to conclude that agencies should be able to 
produce useful and informative strategic plans by this fall. 
OMB's reviews of agency efforts have also reviewed several 
challenges.
    Last summer, in our previous review, most agencies were 
only beginning to link the general goals and objectives of 
their plans with the annual performance goals they would be 
including in their annual performance plan. Further interagency 
coordination on programs or activities that are cross-cutting 
in nature is also necessary. The efforts of the Office of 
National Drug Control Policy provide a useful model for how 
such coordination across agencies with overlapping 
responsibilities might be carried out.
    Looking at the annual performance plans, pursuant to the 
statute, the first plans will be sent to OMB this September 
with the specific performance goals that the agency intends to 
achieve in the fiscal year.
    The agencies and OMB gained valuable experience in 
preparing annual performance plans through the pilot project 
phase of GPRA. OMB has initiated a review of the performance 
goals that agencies proposed to include in its annual 
performance plans for fiscal year 1999. And of the joint 
collaboration with the agencies, OMB has prepared guidance on 
the preparation and submission of annual performance plans for 
fiscal year 1999. And we expect agencies to produce useful and 
informative annual performance plans for that year.
    The act requires that a governmentwide performance plan be 
annually prepared by OMB and be made part of the President's 
budget. The governmentwide performance plan is based on the 
agency annual performance plans that are submitted at the same 
time. The first governmentwide plan will be sent to Congress in 
February 1998, and will cover fiscal year 1999. In this regard, 
we would welcome your views on those features that you believe 
would make the plan informative and useful to Congress.
    The agency's program performance report is the annual 
concluding element of GPRA. The first program performance 
reports, for fiscal year 1999, are to be sent to the President 
and Congress by March 31, 2000.
    Some agencies are experimenting with different formats for 
performance reporting in the accountability report pilot 
program authorized by the Government Management and Reform Act 
that this committee played a pivotal role in achieving passage 
of. These variations include various information on the 
agency's performance as well as other statutorily required 
information such as the agency's audited financial statement 
and the Federal Managers' Financial Integrity Act report.
    Turning for a minute to the pilot projects, GPRA required 
that at least 10 departments or agencies be designated as pilot 
projects for performance plans and program performance reports. 
Pilot projects were designated in all 14 cabinet departments 
and an equal number of independent agencies. The 28 
designations included over 70 individual pilots in the 
departments and agencies and covered approximately a quarter of 
the entire Federal civilian work force.
    Historically, the expansion of the pilots from the minimum 
of 10 required by the statute has been viewed as an important 
advance under the act. Therefore, I was disappointed to hear, 
Mr. Chairman, that you think the result of this has been that 
we have spread the process too thin.
    Our experience has shown us that, in fact, one of the 
reasons that as many people are actually using performance 
information in advance of the act--as is demonstrated by the 
GAO report--is because of the fact that more people were 
actually involved in the pilots than the act required. One of 
the major lessons to be learned from the pilots is to expand 
the number of people in the Government who are focused on the 
formulation of performance goals and measures, and the actual 
achievement of those measures. Therefore, we continue to think 
that, in terms of the overall implementation of the act, our 
ability to involve more Federal agencies or more Federal 
employees was a net gain.
    The most important conclusion reached on completion of the 
performance measurement pilot projects is that, without these 
pilots and the time given to agencies by the act across the 
Government to gain experience in performance-based management, 
there would be little prospect for a successful implementation 
of the act governmentwide. In addition, the scope and dimension 
of these pilots confirmed that virtually every activity done by 
government can be measured in some manner, although not 
perfectly.
    The pilot project process also indicates that the first 
years of full-scale implementation of GPRA will be the start of 
the dialog about performance and performance measures, not the 
end of it. Measures will be modified. Better and more 
appropriate goals will be defined. Performance data will 
increase in both volume and quality. Over time, the overall 
quality of agency plans and reports should improve 
significantly.
    The second set of pilot projects called for by the act are 
those for managerial accountability and flexibility. While 
agency nominations for these pilot projects were solicited and 
received, as the chairman noted, no pilot projects were 
designated.
    Two initiatives begun after passage of GPRA reduced the 
universe of waivers. The Work Force Restructuring Act 
effectively prevented OMB from approving any FTE ceiling waiver 
requests at the time when these pilot project nominations were 
solicited and reviewed. Such FTE waivers would have been an 
important component of many proposed pilots.
    At the same time, the administration was eliminating and 
simplifying many requirements affecting the operations of 
Federal agencies. The Federal Personnel Manual was eliminated 
by OPM, and thousands of pages and instructions and 
requirements disappeared. Procurement regulations were 
substantially streamlined. With far fewer requirements in 
place, waiver demand was lessened as well. In this context, we 
concluded that too few waivers would be authorized to designate 
any pilot project, and have that pilot serve as a credible test 
of the managerial accountability and flexibility provisions of 
GPRA.
    While no flexibility pilot projects were designated, 
waivers were given to a range of agencies and the collaboration 
among the four central management agencies, both in defining a 
process for reviewing and deciding on waivers and identifying 
possible waivers, forms a good foundation for governmentwide 
implementation of this aspect of the GPRA.
    GPRA also requires that not less than five departments or 
agencies be designated as performance budgeting pilots for 
fiscal years 1998 and 1999. These pilots are to develop budgets 
that display the varying levels of performance resulting from 
different budgeted amounts. OMB has notified the chairmen of 
the Senate Committee on Governmental Affairs and the House 
Committee on Government Reform and Oversight that we plan to 
defer the start of the performance budgeting pilot projects by 
1 year.
    This deferral does not affect the content requirements for 
agency strategic plans and performance plans, nor the date for 
OMB's report on the pilots to the Congress. It simply reflects 
our judgment that, as the agencies work this summer and this 
fall on providing what we feel need to be informative 
performance plans for fiscal year 1999, it does not serve the 
implementation of the act, or us, or the Congress to have 
several of them at the same time trying to develop performance 
budgeting pilots. Therefore, our strategy is to work with the 
agencies in the spring and designate at least five pilots which 
will start for fiscal year 2000. And, as noted, our report to 
Congress will be well within the statutory deadline. And we 
think we will end up with a better set of pilot projects 
without diverting the attention to the agencies at the time 
we're talking now to these pilots.
    Congress also asked that OMB address a number of specific 
issues in our May report. Section six of the act required us to 
include in our May report any recommended changes in the 
various provisions of the act. The experience to date in 
implementing GPRA has not identified any provisions that 
require change.
    As noted earlier, we expect agencies to provide useful and 
informative, strategic, and annual performance plans within the 
time line specified by the act. Even as performance measures 
become more refined, however, we should always bear in mind 
that using performance measures in the budgeting process will 
never be an exact science.
    For example, an underperforming program may benefit from 
additional resources, not fewer. Comparing results across 
program lines will always require political judgments about the 
relative priorities, for example, of programs for highways and 
education. We should not lose sight of the fact that 
performance information will often be used to adjust the way 
programs are managed rather than to change the resources 
provided.
    Accurate, timely performance information is important in 
all of these situations, and this is why the administration is 
committed to the successful implementation of the act.
    This concludes my statement, Mr. Chairman, and I will be 
pleased to answer any questions you may have after Mr. Stevens' 
testimony.
    Mr. Horn. We thank you very much for that very succinct 
statement.
    [The prepared statement of Mr. Koskinen follows:]
    [GRAPHIC] [TIFF OMITTED] 45062.004
    
    [GRAPHIC] [TIFF OMITTED] 45062.005
    
    [GRAPHIC] [TIFF OMITTED] 45062.006
    
    [GRAPHIC] [TIFF OMITTED] 45062.007
    
    [GRAPHIC] [TIFF OMITTED] 45062.008
    
    [GRAPHIC] [TIFF OMITTED] 45062.009
    
    [GRAPHIC] [TIFF OMITTED] 45062.010
    
    [GRAPHIC] [TIFF OMITTED] 45062.011
    
    Mr. Horn. Our next witness is L. Nye Stevens, Director, 
Federal Management and Workforce Issues, General Government 
Division, U.S. General Accounting Office. Mr. Mihm has been 
before us many times, but I wonder, Mr. Stevens, or Mr. Mihm, 
if you will identify yourself as to title and role in this 
particular project.
    Mr. Stevens. Yes. Mr. Mihm is our Acting Associate Director 
for Federal Management Issues and has been the supervisor of a 
fairly large staff, most of which are sitting behind him, that 
has prepared the report on GPRA that was due this week.
    Mr. Horn. I wondered why we had such a crowd this morning. 
Management did not attract them; does it? Please proceed.
    Mr. Stevens. Yes, sir. Mr. Chairman, I'll try to be equally 
brief and summarize my points and submit the full statement for 
the record, if that's all right with you.
    Mr. Horn. Absolutely.

 STATEMENT OF L. NYE STEVENS, DIRECTOR, FEDERAL MANAGEMENT AND 
  WORKFORCE ISSUES, GENERAL GOVERNMENT DIVISION, U.S. GENERAL 
ACCOUNTING OFFICE, ACCOMPANIED BY CHRIS MIHM, ACTING ASSOCIATE 
             DIRECTOR FOR FEDERAL MANAGEMENT ISSUES

    Mr. Stevens. As required, we were to report to Congress 
this week on implementation of the Results Act and its 
prospects for governmentwide implementation for the future. We 
did release that report yesterday, and it provides an 
assessment of the progress and challenges that agencies face 
and are going to continue to face in implementing the act.
    Our work shows that, to this point, the experience with the 
provisions of the act has been mixed and, as a result, when it 
goes into full governmentwide effect this fall, we can expect 
to see highly uneven implementation in the executive agencies 
as a whole.
    The most positive finding of the report is that the 
experiences of some of the pilot agencies, and some nonpilot 
agencies, show that improvements are possible when an agency 
adopts a disciplined approach to three important management 
practices: First, setting results-oriented goals; second, 
measuring agency performance against those goals; and, third, 
using performance information to improve effectiveness.
    Our report identifies a number of organizations, such as 
the Coast Guard, the Veterans Health Administration, the Social 
Security Administration, that have made tangible and important 
performance improvements by adopting such an approach. And 
these are real improvements. These are improvements in safety, 
environmental conditions, and the Government's responsiveness 
to its customers.
    Nevertheless, despite the existence of a number of positive 
examples, we have not been overwhelmed by great numbers of 
them. As a result, the prospects for effective implementation 
are fairly limited in many agencies when the law comes into 
effect on a governmentwide basis in less than 4 months.
    While the strategic and annual performance plans will be 
submitted, meeting the letter of the law that you referred to, 
Mr. Chairman, in your statement, our work suggests that these 
plans will not be of a consistently high quality or as useful 
to congressional and agency decisionmaking as they could be. 
Although some performance improvements are noteworthy, the 
reported examples of substantial performance improvements were 
relatively few, and many agencies did not appear to be well 
positioned to provide in 1997 a results oriented answer to the 
fundamental Results Act question, which is, What are we 
accomplishing?
    For example, the Department of Housing and Urban 
Development's public housing management assessment program did 
not collect important information that is needed to manage and 
assess its results. It had information on the numbers of 
outstanding work orders at public housing authorities and 
uncollected rents there, but the system they used did not 
measure other factors, such as the quality of the housing 
itself that are essential for assessing the results that 
housing authorities are achieving as well as for comparing or 
determining which housing authorities are performing well and 
which ones are performing poorly.
    In our view, the situation at HUD appears to be typical. 
Our survey of Federal managers, which was a governmentwide 
survey we carried out for this report, showed that many 
agencies do not appear to be well positioned to answer the 
fundamental question of whether or not their programs have 
produced real results.
    And I'll refer here, Mr. Chairman, to a couple of charts 
that are to my left. They're also reprinted on page 6 and 8 of 
the prepared statement.
    The first chart shows only 32 percent of Federal managers 
said that they had the types of performance pressures that 
would demonstrate whether the programs were achieving their 
intended results. And even in similar numbers, about a third 
said they have measures that address customer satisfaction and 
service quality.
    Although percentages are low, significantly more managers 
did report the existence of results oriented and other 
performance measures to a great extent currently than they 
recollected the situation to be 3 years ago. So it's a 
situation in which there's more today than there was then but 
still not a lot by an absolute standard.
    Of course it's not sufficient merely to measure 
performance. If the Results Act is to have a lasting impact in 
contrast to many of the management improvement initiatives that 
you mentioned, Mr. Chairman, in your opening statement such as 
PPBS and MBO and CBB, it's important that performance 
information actually be used to make decisions and to improve 
the management of Federal programs.
    In our survey, we asked Federal managers about the extent 
to which results oriented performance information was actually 
used. And that's reflected in the second chart, the one closest 
to you, Mr. Chairman. As that chart shows, it's on page 8 of 
the statement, managers reported that the use of such 
information was very limited. It's still a very infrequent 
occurrence. Only about a fifth of the managers and supervisors 
we contacted reported that results-oriented performance 
information was used to help save agency budget, and an even 
smaller proportion said it was used to make actual changes in 
legislation, program design, or in funding decisions.
    However, similar to the situation with performance 
measures, Federal managers did report some positive change in 
what they recollected the situation was 3 years ago. There has 
been some progress.
    Our work has shown that agencies are confronting five key 
challenges that have limited the effective implementation of 
the Results Act and its prospects for the future. These 
challenges, which are detailed in our report, really represent 
an unfinished agenda for the Results Act.
    The first challenge is that of establishing clear agency 
missions and strategic goals, especially in the very frequent 
case, where program efforts are overlapping and fragmented. One 
example of this is the Department of Education programs that 
provide loans and grants to students to help finance their 
higher education. We found that although the student loan and 
Pell grant programs provided the majority of Federal financial 
aid to students for post-secondary education, there are another 
22 smaller programs that were targeted to specific segments of 
the population, such as prospective students from disadvantaged 
families.
    These 22 programs were collectively funded at the $1.1 
billion level for fiscal year 1995. We concluded that the 
consolidation of some of these smaller grant programs, either 
with larger grants or with each other, would have no adverse 
impact on students' access to post-secondary education. And the 
Federal Government over a 5-year period could save about 10 
percent in administrative costs, or about $550 million, not an 
inconsequential amount at all.
    The second major unmet challenge is that of limited or 
indirect influence that the Federal Government has in 
determining whether a result is actually achieved. And it 
complicates the difficult task of measuring the discrete 
Federal contribution to a specific result. Measuring the 
Federal contribution is particularly difficult in regulatory 
programs on which we're going to be issuing a separate report 
very shortly in research and development programs and in those 
that are delivered through third parties such as financial 
institutions or State and local governments.
    For example, determining the impact of economic development 
of which, by the way, there are 342 in the catalog of domestic 
Federal assistance and has been a daunting task because of the 
numerous external forces including broad national economic 
trends and assistance that communities may receive from State 
and local government and the private sector that also 
contribute to economic development. Separating out the effects 
of Federal efforts in that area can be extremely difficult as 
we observed in our review last year of development programs 
because it first requires documentation that there's been some 
improvement; second, linkage of the specific program elements 
to the actual economic changes; and third, a measurement of the 
growth stemming from other influences on the economy in order 
to isolate the impact that could be attributed to the economic 
development programs that we're evaluating.
    The third major challenge to the effective implementation 
of the act is the lack of the results-oriented performance 
information in many agencies, as you pointed out in your own 
statement, Mr. Chairman, which hampers efforts to identify 
appropriate goals and confidently assess performance.
    Even when the data exists, we have consistently found that 
the quality of the data is often questionable due to several 
factors, including the need very often to rely on third parties 
to provide it.
    For example, the Department of Veterans Affairs told us 
that some of their results-oriented measures for the loan 
guarantee programs such as simple things as the average time it 
took to process loans, that these measures were new and that 
the base line data just weren't available for them. 
Consequently, they did not have data on past performance to use 
in setting the 1998 targets, and they had to say this is going 
to be provided later.
    The fourth challenge centers on the need to instill within 
the agencies an organizational culture that focuses on results, 
and this I must say still remains a work in progress in the 
Federal Government. For example, when we ask Federal managers 
in our survey about the extent to which they and their 
supervisors had the authority they needed to help the agencies 
accomplish their strategic goals, they did not perceive that 
they had more such authority than they recalled having 3 years 
ago. We reported in April, as Mr. Koskinen mentioned, that the 
managerial accountability and flexibility project did not work 
as had been intended.
    And then finally, Mr. Chairman, there's a fifth challenge 
to the effective implementation of the act and that's the need 
to link agencies' performance plans directly to the budget 
process. Reaching agreement between Congress and the executive 
branch on the changes that are needed in the program activity 
structure is quite likely and is going to be a time-consuming, 
very difficult process to do that and one that, in our view, is 
going to take more than one budget cycle to resolve.
    Just in closing, I would point out that the--solving these 
challenges is going to raise some significant policy issues for 
the administration and Congress to resolve, some of which are 
going to be very difficult. However, we believe that the 
success or failure of the Government Performance and Results 
Act should not be judged on whether contentious policy issues 
are fully resolved; rather, that judgment of its success or 
failure should turn on the extent to which the information 
produced through the required goal-setting and performance 
measurement practices--once these practices are successfully 
implemented--helps inform policy decisions and improve program 
management. That's the ultimate objective.
    Thank you, Mr. Chairman. We'll respond to any questions you 
have.
    Mr. Horn. We thank you, Mr. Stevens.
    [The prepared statement of Mr. Stevens follows:]
    [GRAPHIC] [TIFF OMITTED] 45062.012
    
    [GRAPHIC] [TIFF OMITTED] 45062.013
    
    [GRAPHIC] [TIFF OMITTED] 45062.014
    
    [GRAPHIC] [TIFF OMITTED] 45062.015
    
    [GRAPHIC] [TIFF OMITTED] 45062.016
    
    [GRAPHIC] [TIFF OMITTED] 45062.017
    
    [GRAPHIC] [TIFF OMITTED] 45062.018
    
    [GRAPHIC] [TIFF OMITTED] 45062.019
    
    [GRAPHIC] [TIFF OMITTED] 45062.020
    
    [GRAPHIC] [TIFF OMITTED] 45062.021
    
    [GRAPHIC] [TIFF OMITTED] 45062.022
    
    [GRAPHIC] [TIFF OMITTED] 45062.023
    
    [GRAPHIC] [TIFF OMITTED] 45062.024
    
    [GRAPHIC] [TIFF OMITTED] 45062.025
    
    [GRAPHIC] [TIFF OMITTED] 45062.026
    
    [GRAPHIC] [TIFF OMITTED] 45062.027
    
    [GRAPHIC] [TIFF OMITTED] 45062.028
    
    [GRAPHIC] [TIFF OMITTED] 45062.029
    
    [GRAPHIC] [TIFF OMITTED] 45062.030
    
    [GRAPHIC] [TIFF OMITTED] 45062.031
    
    Mr. Horn. And now I now yield 10 minutes to Mr. Sessions, 
the gentleman from Texas, who spent a lot of time on this 
subject, so we are going to have you lead the questioning.
    Mr. Sessions. Thank you, Mr. Chairman.
    Mr. Koskinen, I would like to first start, if I could, with 
you and have you provide us, if you can, an evaluation of those 
plans that were submitted and talk with me specifically about 
who fell within the criteria that you think are good plans, 
ones that met your expectation, and then on the reverse side, 
some of those which you feel will require some additional work.
    Mr. Koskinen. I think the short answer is they all require 
additional work. The statute didn't contemplate--and we didn't 
either--that they would be done by now. Our goal, in fact, is 
to continue to work with the agencies, as we are this spring, 
and the assessments through the summer, to ensure that we get 
the best possible plans to you and the public in September. 
We've made it clear to the agencies that we support 
congressional consultation, and we expect that those plans will 
evolve to some substantial extent as a result of consultations 
not only with Congress, but other stakeholders and interested 
parties.
    Clearly, some agencies have broader background and 
experience and are farther ahead. An agency like Social 
Security, for instance, has in effect been producing strategic 
plans and performance measures for 6 or 7 years. And if you 
look at their annual accountability report, it also is a model 
of what we're trying to drive toward. Because in one document--
produced in a timely manner--they talk about their mission, 
what they're trying to accomplish, the measures of customer 
service and delivery of the benefits, how they've done against 
those measures, and what their audited financial statements 
show. So they clearly are an agency that is doing very well.
    But I would stress that at this time we don't think any 
agency is complete. And we have been pleased to have the active 
involvement, particularly in the House, of the majority 
leader's teams working with the agencies and us to try to get 
the best plans we can. I think Mr. Stevens and GAO are correct. 
This is a massive undertaking and it's going to take the best 
efforts of all of us to have us succeed.
    Mr. Sessions. OK. So you would probably describe this as 
maybe a scrubbing process. They get them to you, their first 
view, you try and scrub it, you go back and work with them.
    You talked about stakeholders. Is that GAO? Are they one of 
the stakeholders that you work with?
    Mr. Koskinen. No, actually the stakeholders, the agencies 
we're working with are, in fact, the interested constituents 
and parties in--affected by their programs or interested in 
them. The stakeholder they all have, obviously, is the 
Congress. The statute provides for that. Our guidance requires 
that there be an active consultation by every agency with its 
oversight committees, authorizers, and appropriators. We have 
worked for the last 2 or 3 years with GAO in terms of jointly 
sharing information. But obviously we understand that GAO is a 
part of the legislative branch, not the executive branch.
    Mr. Sessions. All right. What is your relationship with GAO 
in the scrubbing process, then?
    Mr. Koskinen. In terms of the scrubbing process, as you 
refer to it, I would refer to it as the review and dialog with 
the agencies, we have not been in communication with GAO on an 
agency-by-agency basis. We have utilized the reports GAO has 
issued to help inform the process.
    As I think I testified about a year ago, GAO did a very 
good review of the pilot performance projects that talked about 
the lessons learned. We thought that was a good enough report 
and valuable enough that we actually distributed it to a large 
number of people in the executive branch because we thought the 
lessons GAO discovered were important for all of the agencies 
to undertake. But on an agency-by-agency basis, we're not 
engaged in any communications with GAO.
    Mr. Sessions. OK. How about an engagement with your 
organization, then, inasmuch as you are the one receiving the 
plans and them working with you? I am trying to find out--you 
are here before us.
    Mr. Koskinen. Yes.
    Mr. Sessions. I am trying to determine the honest attempt 
on both sides to get closer to what Congress is after.
    Mr. Koskinen. Right. We started actually over 3 years ago 
but when I, the 3 years I've been here, we've actually been 
working on an almost continuous basis with the agencies. In the 
fall of 1994, in that budget process for the fiscal 1996 
budget, we asked the agencies to provide as much performance 
information as they had to begin to take a look at what 
performance measures would look like.
    We did a review with them in the spring of 1995 of their 
core programs. We said, ``If you looked at your basic programs, 
what would be the right performance measures for those?''
    In the summer of 1996, we did a full-scale review of the 
agencies' strategic planning processes. And, as noted in my 
testimony, we discovered, of course, that they were facing some 
significant challenges.
    We're in the process right now of concluding a spring 
assessment of a range of management initiatives, but the focal 
point is on GPRA as a general matter. Each of our program 
examining divisions has worked and is working with the agencies 
to, in fact, critique, provide guidance on and feedback on each 
specific agency plan. So that, as I say, this has been an over 
a 3-year undertaking, and we continue to believe that we're 
going to have to work up until the end of August to make sure 
that we get you the best plans we can.
    Mr. Sessions. Right. OK. Well, with that in mind, and I do 
understand from your testimony that you have given here that 
there are a lot of changes that are in process.
    Mr. Koskinen. Right.
    Mr. Sessions. That you are trying to take full advantage of 
those, but we did talk about the 3 years. Do you believe that, 
as your responsibility and your testimony that you are giving 
to us today, that you are going to be on target to present 
plans that I think not only meet the law but also the spirit of 
the law, in other words, not just written compliance but also 
an in-depth observation from each one of those agencies about 
their mission?
    Mr. Koskinen. Yes.
    Mr. Sessions. You believe sitting there today that you are 
going to be on target and they will all be?
    Mr. Koskinen. I think GAO is right. We might disagree where 
the bell shaped curve starts in terms of the spread. There are 
going to be some again that reflect years of experience with 
this that will be at one end of the bell shaped curve and will 
be outstanding plans. There are going to be some at the other 
end of the bell shaped curve, a small number, who will be 
agencies who are still struggling, that these will be 
acceptable plans, they will meet the spirit, but the agencies 
will be the first to tell you that they are, in fact, the front 
end of that experience, and they will continue to evolve.
    The bulk of the plans will be, I think, comfortably in the 
middle of that bell shaped distribution curve. They will be in-
depth analyses of missions, of goals, of objectives, will 
indicate performance measures that will be used, and will, in 
fact, start us on down the road.
    But I might just note that our goal in this process is not 
a neat document. If all we accomplish in this process is very 
good strategic planning documents and that's it, we will have 
failed. The goal in this process is in fact to have agencies 
and the Congress use the information generated about the 
results achieved by programs to make management decisions as 
well as budgetary decisions. And I would just say, it takes a 
lot of people to tango, but it takes at least two. And that is, 
it's going to take the Congress as well as the agencies.
    Mr. Stevens noted, I think very appropriately, that one of 
the challenges they have identified is the ability to link 
performance plans to the budget process.
    Mr. Sessions. Yes.
    Mr. Koskinen. Now that's a challenge not just to the 
agencies, that's a challenge to the Congress because our 
present budgetary accounting system clearly does not track in 
many cases program-by-program. There are a lot of line items 
and detailed and disaggregation of budgetary resources that in 
fact make it very confusing, if not impossible, to figure out 
what the costs are and resources are devoted to a particular 
program.
    So we have I think a lot of work to do jointly together if 
this act is actually going to achieve its goal, which is in 
fact to improve the performance of the Federal Government.
    Mr. Sessions. This all gets down to accountability, and I 
can assure you this Congress is going to look very carefully at 
the accountability factor, because in fact we have asked those 
agencies to describe those areas, that methodology, and what 
their plan of action is going to be. So very good.
    Mr. Mihm, if I might direct my question, the same one to 
you perhaps, and that is, from the evaluation that you have had 
as an independent arm for your analysis of the plans you have 
seen, or Mr. Stevens, whichever is most comfortable with 
responding.
    Mr. Mihm. We found, Mr. Sessions, on the whole, the 
agencies that have the most direct relationship between the 
product and service that they provide and the ultimate customer 
are those that have the easiest time doing GPRA, and, as a 
result, they're the furthest along and the furthest down the 
bell shaped curve that Mr. Koskinen talked about.
    So, for example, Social Security Administration where it's 
pretty easy--or relatively, I should be careful--are they 
getting the right check to the right individual on the right 
time? It's easier than it would be for an intergovernmental 
program run by the Department of Education to figure out what's 
our result, what's the relationship that we do and our ultimate 
result.
    So it really turns on the success that the agency is having 
in both its strategic planning and its annual planning. Its 
performance measurement efforts really turn on the degree to 
which there's a direct relationship between what it does and 
the ultimate user of its product or service.
    Mr. Sessions. Good. I have got about 1 minute remaining. 
Let me say this. I hope that both of you go back, Mr. Koskinen, 
that you give a pat on the back to those agencies that have 
gotten their plans in on time, and I hope you will let them 
know in writing that they were close, and those that were not 
close, that you have gone back to them and said it requires 
more work. But I hope that that is in writing to them, because, 
as we go through this appropriation process, not just this 
year, but next year, that will be an important trail marker for 
those agency heads to understand that we really were serious 
about what we are trying to do. And I think it helps your job 
out.
    Mr. Koskinen. That's right.
    Mr. Sessions. Thank you, Mr. Chairman.
    Mr. Horn. I thank you and now recognize for 10 minutes Mr. 
Davis, the Member from Illinois.
    Mr. Davis of Illinois. Thank you very much, Mr. Chairman, 
and with your permission I would like to submit a statement for 
the record.
    Mr. Horn. Without objection. Is that an opening statement?
    Mr. Davis of Illinois. Yes.
    Mr. Horn. It will be put with the other opening statements 
at the beginning of the hearing.
    Mr. Davis of Illinois. Thank you very much.
    Mr. Koskinen, we know that OMB plans to defer the start of 
the pilot projects on performance budgeting for a year. 
According to your report, a major reason for this delay is the 
lack of adequate cost accounting capability in many of the 
Federal agencies.
    My question is: What are the implications of poor cost 
accounting capabilities for the implementation of the GPRA 
generally? And then, does this problem, coupled with the 
absence of baseline data, mean that additional delays in 
performance budgeting pilots are likely? And finally, what do 
you plan to do to address these weaknesses?
    Mr. Koskinen. First, let me state that the absence of cost 
accounting data is a factor, but I think our major reason for 
delaying, as I noted earlier to the chairman, is that we did 
not want to distract the agencies at this timeframe while they 
are working on completing their strategic plans and preparing 
their first performance plans for submission to us in September 
and the Congress in February, to at the same be starting up a 
new set of pilots.
    The cost accounting issue is an important one. We won't 
solve that problem either in the next 12 months. What we are 
talking about in cost accounting is not that we don't, in fact, 
keep track of where the funds are spent, but we are talking 
about costing out the cost of each activity or program. In 
other words, as we have talked to you today and as the act 
talks about, we want to know what the results are of our 
activities. But at the same time, once we know what performance 
we have gotten, we would like to know how much did it cost us 
to achieve that performance? And, again, our present budgetary 
structure disaggregates those costs. We have personnel, salary 
and expenses, a lot of other kind of overhead costs that are 
spread in various ways throughout the budgets, and it is 
important for us to be able to pull all of those costs 
together.
    The Financial Accounting Standards Advisory Board, FASAB, 
has provided a set of now complete accounting standards for the 
Government, and one of the last ones they issued was cost 
accounting. So we are moving in the right direction, but I 
think it will be some time before we get there. But ultimately, 
we need to have that information so that, as I say, we can 
complete the equation; not only knowing what we got for what we 
paid, but actually what did we pay to get that result.
    With regard to your question, then, about will the absence 
of baselines mean we will delay the performance budgeting? The 
answer to that is, no; that we will look at the performance 
budgeting pilots as a way of trying to figure out can we--how 
reasonable is it to ask the agencies to give us, in effect, 
sensitivity analyses not only of different resources, but the 
allocation of existing resources in different ways?
    I would note that the performance budgeting pilots are the 
only pilots that then do not automatically go to full scale 
implementation. The way the statute is designed, we do the 
pilots and then OMB will report to the Congress with our 
recommendations as to whether this is worth the effort. So this 
is really a pilot program in which we will all make judgments 
as to whether this adds anything significant to the dialog, 
which is worth the cost and the effort of doing it.
    With regard to baselines, let me just say, because that 
runs through some of the GAO comments and our own, clearly we 
need to have baselines for our activities so that we can see 
and know how to measure the improvement. But even as a 
fundamental question, it is hard to know what your goal ought 
to be if you don't know where you are.
    But the absence of those baselines shouldn't surprise 
anyone. If we have not been, as a general matter across the 
board, collecting performance information and talking about it, 
then we are not going to have a lot of those baselines. So what 
we have told the agencies is if you wait until you have perfect 
information and wonderful histories of several years, we will 
be at this for a long time.
    So the conclusion we have reached, and the CFO Council, 
which has worked with us, is that the algorithm we are using is 
start wherever you are. Whatever information you have now, 
whatever baseline information you have, whatever judgments you 
can make on the basis of your experience, use them; but don't 
wait until some future day when we have either better cost 
accounting or better baselines. Start where you are and we will 
be building the baselines as we go.
    Mr. Davis of Illinois. I would assume that pilots resulted 
as a result of earlier strategic planning. Would that be 
accurate?
    Mr. Koskinen. I am sorry?
    Mr. Davis of Illinois. That the pilots were developed as a 
result of earlier strategic planning.
    Mr. Koskinen. No, actually, the statute recognized that the 
most difficult part of implementing this act is going to be 
defining performance measures and collecting data and 
determining what is the right data and how hard is it to get? 
So even while agencies were thinking about and beginning to 
work toward the development of strategic plans, we went into 
specific agencies who volunteered to be pilots and that we 
selected as a pilot, and said wherever you are going with the 
strategic plan, what are useful performance measures? And, 
let's do a set of pilots to see how easy it is to collect that 
information and what utility will it be once we have it.
    So to some extent, the performance pilots were ahead of the 
train, which would normally start with a strategic plan.
    Now, the ones that were most effective, and the GAO report 
showed that, were the ones that, in fact, grew out of a broader 
strategic plan and vision for the agencies. And some agencies 
had more experience at that just on their own than others. I 
think that was one of the lessons GAO drew from those pilots 
and we have agreed with that, and that is that the ultimate 
test of performance measures is can you link them to your basic 
goals and objectives?
    Obviously to do that, you have got to know what your goals 
and objectives are. As I noted in my testimony, in our review 
last summer of the strategic planning process, summer of 1996, 
we thought again, as GAO, that one of the great challenges will 
be to take performance information and make sure that it 
actually is performance-related to the achievement of the basic 
goals and objectives that are part of an agency's strategic 
plan.
    Mr. Davis of Illinois. Is it likely that the budget process 
will need to be changed to incorporate the performance 
information generated by the GPRA? And if so, what is OMB's 
position on this issue?
    Mr. Koskinen. I think it is likely and, in fact, it is 
imperative. And our position is that we are anxious to work 
with the Congress and the Budget Committees to take a look at 
the implications of that. Ultimately, we call it connecting 
resources to results, that as we go through the budget process 
we should be continually analyzing budgetary accounts and 
decisions in terms of how they relate to the results that we 
are getting from the allocation and the application of those 
resources. So I think we are going to have to have a more 
transparent budget process.
    Mr. Davis of Illinois. Can you give us any specific 
instances of how the link would take place or shape up?
    Mr. Koskinen. Well, HUD, for instance, has an interesting 
set of matrixes of their programs and the connection of the 
programs to the budgetary accounts. They have, I don't remember 
quite the exact numbers, but for a particular program they 
might have as many as 60 budget accounts that related to that 
program.
    And conversely, they have some programs that themselves are 
spread across a range of other budget accounts. So that the 
issue is can we collect and connect the budget accounts to the 
programs?
    I just had a meeting recently with the State Department, 
which talked about a hard set of strategic discussions. But it 
has been wonderful. The State Department is really working its 
way through it. But as they noted, when they get through 
talking about their goals and objectives, they are still going 
to then have to deal with a budget process that has very 
specific line items in it that are not easily associated with 
their goals, objectives, and performance measures.
    So we talked with them about the need to engage in a dialog 
with their appropriators about how to most meaningfully connect 
the resources to the results.
    Mr. Davis of Illinois. I would think that their goals and 
objectives might sometimes be a little difficult to measure.
    Mr. Koskinen. Yes.
    Mr. Davis of Illinois. Mr. Stevens, the survey GAO 
conducted as part of your report indicates that it will take 
time for agencies to reorient their thinking toward the result-
driven approach required by GPRA. Can you give us any idea of 
how much time it is reasonable to expect, realizing that things 
will vary among different agencies?
    Mr. Stevens. If you are referring, Mr. Davis, specifically 
to the cultural aspects of the need to adapt to results-
oriented management, I don't think it will ever end. The 
governmental system is fundamentally one that has strong 
emphasis on process and securing the confidence of Government 
managers that their programs can be and should be managed by 
results I think will never be as fully implemented as it is in 
the private sector, for example.
    That isn't to say that we aren't making progress. When we 
ask people what the situation was 3 years ago, they say, well, 
it is better than it was then, so we are making progress, but I 
don't think it will ever be done.
    Mr. Davis of Illinois. Are you saying that process is 
oftentimes as important as content or results?
    Mr. Stevens. That has certainly been true of the 
bureaucracy up until now, yes, sir, and I think the Government 
Performance and Results Act is a direct attempt to change that 
culture.
    Mr. Davis of Illinois. In your statement, you say that 
sustained congressional involvement is needed to ensure that 
missions are based in statute and to identify cases where 
statutory requirements need to be modified or clarified. Could 
you give some examples of these instances?
    Mr. Stevens. In the Government Performance and Results Act 
itself or statutory requirements that would reflect the 
requirements on agencies?
    Mr. Davis of Illinois. That's correct, yes.
    Mr. Stevens. Well, I would say, for example, that the 342 
economic development programs that exist in the Government, 
each one of those has a statutory foundation or basis that 
attempts to look for commonalities and compare their results, 
perhaps consolidate some, would certainly take congressional 
authorization in many cases. They are spread among different 
committees. They have different protectors and that could be a 
very complicated job.
    Mr. Davis of Illinois. GAO has commented that pilot 
projects, which OMB is currently conducting to develop broad-
based accountability reports which integrate financial program 
performance and management information, do you need legislation 
in order to do this in this particular area?
    Mr. Mihm. Mr. Davis, those are currently being piloted 
under a separate piece of legislation called the Government 
Management Reform Act--I am sorry for all of these acronyms--
GMRA, which expanded the requirements to the Chief Financial 
Officers Act for audited financial statements for all agencies. 
OMB is working with the agencies to pilot those consolidated 
accountability reports that you mentioned.
    There were a half dozen or so that were piloted the first 
year, more in the second year, and now I understand there is 
going to be plans for a dozen or more in the third year to 
pilot the integration of bringing together for the first time 
the information that you as congressional users really need in 
one format. So you would get audited financial information, 
program performance information and other vital management 
information for the agencies together rather than coming up in 
a semiannual basis or on different calendar times. So it will 
be far more useful to you. So it is already under a statutory 
basis, the piloting of those.
    Mr. Davis of Illinois. And that information is evolving?
    Mr. Mihm. It is evolving, yes, sir.
    Mr. Davis of Illinois. Thank you very much, Mr. Chairman. 
That completes my questioning.
    Mr. Horn. I thank the gentleman. I now yield 10 minutes to 
the gentleman from Virginia, Mr. Davis.
    Mr. Davis of Virginia. Mr. Chairman, thank you very much. I 
think both witnesses testified about really how well they 
believed the Social Security Administration is at developing 
strategic plans, but at this point I don't think--Congress has 
not received their draft plan and we haven't been consulted on 
this. In fact, I've got a list of agencies here, agencies that 
haven't submitted their plans, prospects uncertain, but 
agencies--Social Security is at the lowest, that they haven't 
submitted their plans and they indicate that the consultations 
aren't going to be forthcoming for some time; a risk of 
noncompliance. And I have Social Security under that list the 
staff has assembled.
    Any reaction to that?
    Mr. Koskinen. Yes. As I say, we are working very closely 
with particularly the House leaders in the consultation 
process, and I have advised Social Security that they are in 
the ironic position of having done probably as much or more 
work in strategic planning and performance measures than any 
agency and yet now show up on the bottom of this list.
    Their problem is they are in the middle of a change, 
obviously, in political leadership. They want to ensure that 
when they come with the consultation that they won't be 
consulting about a plan that will be changed. But they 
understand the problem and have committed that this month they 
will begin that consultation process.
    As I discussed with the majority leader's staff actually 
yesterday, I think that of all the agencies they are least 
likely to be a problem because of their history and the quality 
of their information. But I have stressed to them that 
consultation is a real part of this process, that they need to 
be here talking with you about their plans. They need to be 
getting input from you.
    They have already over time gotten that from their 
appropriators where they provide this performance information 
every year, but I have noted to them that there is a broader 
constituency here and they need to get themselves off of the 
bottom of the list.
    Mr. Davis of Virginia. There is probably more interest in 
Congress today than was anticipated when this bill passed in 
terms of how things are going, and agencies, everybody seems to 
be having trouble adjusting. Even OMB was a little bit late 
with its draft statutory report, and I know you have had a lot 
of other things to do over there in the past. Is that also an 
issue of just priorities with a limited staff at this point?
    Mr. Koskinen. Right. I have been very concerned that we not 
be the shoemaker's children and that we be out getting plans 
from everybody else and not have one. We obviously have had a 
few things on our mind with the budget agreement and other 
negotiations, but we do have a draft. We did start the 
consultation process. We do present an interesting challenge, 
as a number of agencies, because we don't create widgets. We 
don't produce necessarily products. We are a staff agency 
providing policy advice analysis and other information both to 
the President and to the agencies in the Congress. So figuring 
out what is measurable in terms of our activities is a 
challenge.
    Our plan addresses that, and we are looking forward to more 
discussion with not only the Congress, but other interested 
parties, because we are open to additional suggestions about 
how you can actually quantify most effectively the performance 
measures other than the fact of policy operation.
    Mr. Davis of Virginia. One of the interesting things is the 
expectations everybody has coming from this act. I mean, some 
of these expectations may be reinterpreted now over what might 
have been intended when the act passes and time changes and 
people read it and look at it in the context of where we are 
today with balanced budget agreements and the like. I wasn't 
even here when the law passed but looking at it, I am 
interested in what the mission statements are going to show in 
terms of what agencies are doing now and what their mission 
statements actually call for.
    It seems to me, to some extent, this can be where the 
rubber can hit the road with some of these agencies that may 
have to revamp their mission statements or change the way they 
are doing things. And I did not hear a lot of testimony on that 
from either of you. I wonder if you have any observations on 
that.
    Mr. Koskinen. As we have said to the agencies over this 
long 3-year consultation process, particularly last summer when 
issues began to surface, you don't find new issues in the 
strategic planning process. What you find is it is a way of 
pulling together all of the issues, so that your point is well 
taken. In the consultation process, in the development of these 
plans and ultimately in the review of them, the plans will be a 
focal point for discussing some fundamental policy issues that 
need to be resolved.
    The favorite example everybody has has been the Forest 
Service that on the one hand is trying to protect the forest 
and on the other hand log them, and what are the differences in 
those competing policy issues?
    Regulatory agencies obviously have a range of issues that 
have been the subject of discussion and debate. Strategic plans 
won't reveal new problems. What they are going to do is, in 
fact, engage people in a focused discussion about what are the 
missions and goals and objectives and more--equally 
importantly, what are we getting as a result of the activities? 
What have been the results?
    My only kibitz a little with GAO's point about the impact 
issue is that it is correct, that ultimately when there is a 
result out there or an outcome as we call it, the hardest 
question will be to figure out what role did we play in 
achieving that? But I think that's a secondary issue. It is a 
great challenge, but if we could just get people focusing on 
the actual outcomes, the results of what happened and then 
worry about what role we had in it, we would be way ahead of 
the present debate, which is primarily focused on inputs.
    If you look at the dialog and debate over the last 2 or 3 
years, contentious as it has been, it has been primarily 
focused on inputs: How much resources? How many people should 
we devote to what issues? And what I think the magic of this 
act, and the potential it has for all of us, is that it will 
move the dialog kind of along that spectrum and have us start 
saying not only what were the inputs and what are the 
appropriate inputs, but what were the results? And then I think 
if we can ever get to the point where we are all arguing about 
what role our programs played in the actual results, what 
impact we had, we will have made great progress.
    Mr. Davis of Virginia. Let me ask if GAO has any comment on 
the mission statements and how these are going to gel as we 
start addressing them and how agencies may have gone way beyond 
their mission statements in some cases.
    Mr. Stevens. Well, the very process of thinking about what 
an agency's mission is is new to some of them, and certainly 
the process of discussing that with their congressional 
overseers is very new and somewhat worrisome to them.
    The Environmental Protection Agency is a good example. They 
have about a dozen statutory mandates, but they don't have any 
overarching legislative mission statement or determination of 
what their real mission is. They are responsible for clean air, 
clean water and solid waste and so forth, but no overarching 
determination of what their environmental responsibilities are.
    The Federal Emergency Management Agency, I think, is one 
that has shown a good approach to this in the recent past, in 
which they examined whether they were really there to provide 
assistance after a disaster takes place, or whether they 
couldn't do more for the ultimate objective of mitigating the 
damage of disasters by taking actions in advance and working 
more closely with State and local governments to mitigate the 
effects of disasters before they take place than having what 
they interpreted their mission to be up until then of coming in 
afterwards and providing money for a clean-up.
    So there have been a number of cases in which this has been 
a very therapeutic process.
    Mr. Koskinen. Let me just comment. FEMA is a very 
interesting example of what the Congressman is driving at. When 
James Lee Witt started, he noted that one of the major missions 
FEMA had was, in fact, preparing for a nuclear attack and the 
results of it. And as he noted, the cold war seemed to have 
ended in the meantime and the wall was down and they had 320 
people working on, in fact, response to nuclear attack. So that 
was a legitimate mission.
    Mr. Davis of Virginia. How do we measure that one today?
    Mr. Koskinen. It is like the guy with the elephants in 
Indiana. We haven't had one for a while so it must have been 
OK.
    The mission was a legitimate one 5 years, 10 years, 15 
years ago, but as the world changed it was appropriate for FEMA 
to take a hard look at what is our basic mission and redeploy 
those resources. So I think that the point you make is a good 
one, and it is not static. We may have an agreement about 
missions today that is appropriate in the present circumstances 
and over the next iteration of the next strategic plan. Life 
may change, and we may all decide that the focus in the 
deployment of resources in an area ought to be adjusted 
accordingly.
    Mr. Davis of Virginia. Mr. Koskinen, business organizations 
are doing this every day. They are examining their mission 
statements every day, every quarter as the bottom line comes 
in, and Government sometimes does it, oftentimes doesn't 
because for a host of reasons. It is just a good policy and 
rhythm to get into once we get started.
    I know it is starting off perhaps more controversial 
because of the cultural shock in some of these agencies that 
haven't had the kind of oversight from Congress that this 
demands and the kind of comparisons that they are forced to 
make, that they have never been accustomed to making. But this 
really, I think, shows great promise over the long-term if we 
can get this off and running and started. It is a little uneven 
right now.
    But I would just say for having worked with you and Mr. 
Kelman and others over at OMB it has really been very 
foresighted in a lot of ways, and if you can help us get 
through this and coordinate with GAO, I think we can leave a 
legacy here that will stand for future administrations and 
relationships that Congress, different parties and on different 
sides of the table, are moving through. But I think this has a 
lot of promise.
    Let me ask you this: In this town I see an entire cottage 
industry of specialized management consultants springing up as 
governmentwide implementation gets closer and closer. To what 
extent are agencies having to turn to outside resources or 
consultants to help them identify meaningful performance goals 
and measures, and develop their strategic plans or otherwise 
work to comply with the Results Act?
    Mr. Koskinen. I don't know if there is an easy way to get 
at that. The statute makes it clear that the mission of an 
agency is not to be designed by consultants, so they are 
prohibited from using outsiders to tell them what their 
missions are. Those have to be generated internally.
    Clearly, a number of them have made effective use of 
outside advisors about the strategic planning process. They 
have gone on the private sector experiences and they are using 
that. But again, one of our concerns, as I have testified in 
the past, has been to make sure that the agencies don't create 
what I call ``GPRA bureaucracies.'' That is, we have somebody 
off on the side producing whatever we and you want them to 
produce in the form of paper, but it doesn't relate to the day-
in and day-out management and operation of the agency.
    So one of our tests of the agency in a strategic planning 
process is: Who is involved in the process? Who is actually 
leading it? What are the uses of outside people? How involved 
are the senior leadership of the agency in the development of 
the plan? And our goal is to ensure, as I say, that these 
become working documents; that, in fact, agencies manage 
against these; even if we don't allocate another dollar in 
resources one way or the other, that they actually manage 
against the information they get about how the programs are 
operating and the effectiveness of them.
    Mr. Davis of Virginia. Thank you very much. I think my time 
is about up.
    Mr. Horn. Thank you.
    We have with us this morning Mr. Radanovich of California, 
a member of the Budget Committee and without objection, I am 
glad to yield you 5 to 10 minutes.
    Mr. Radavonich. Thank you, Mr. Chairman. I am just 
basically here to listen. I appreciate being able to be sat on 
the dais and would just like to listen to the testimony. Thank 
you very much.
    Mr. Horn. That's humility beyond the call of any Member of 
this House.
    Mr. Koskinen. Could you come to a few more of my hearings?
    Mr. Horn. OK. Let me ask a few questions and then we will 
go in for the second round of questions.
    These are directed at all of you, so you can all mix it up 
on this. As we all know, the Department of Defense, the 
Internal Revenue Service, will not be able to give Congress a 
balance sheet that has been mandated by law for a number of 
years, when it comes due this fall. Both have had severe fiscal 
management problems. And I guess my curiosity is this: With 
those two agencies being sort of basket cases at the civilian 
level, and defense with 49 separate accounting systems, IRS 
with a complete lack of management for years, why were not 
various other pilots put in those agencies to see if we can't 
learn something? Because these are the two of the three or four 
largest agencies in the Federal Government, and I believe the 
only one that was a pilot was Defense Logistics. But I just 
wonder what the thinking of OMB was and I wonder what the 
reaction of GAO is?
    Mr. Koskinen. Mr. Chairman, as you know, you and I go round 
and round about this. First, I would like to disagree that the 
two agencies in question are a basket case, and I would 
certainly disagree that there has been a complete lack of 
management at the IRS for a long time. IRS clearly has systems 
problems in tax systems modernization, but it is a leader in a 
number of ways in internal management. So I think it doesn't 
treat them well or fairly to say that they have had an absence 
of management. I would not say that they have not had an 
absence of problems, particularly in the information technology 
area, but I don't think we further the dialog that way.
    Let me now then say also that in the list of pilots, there 
were five other pilots at the Department of Defense, although 
Defense Logistics was one of the most successful, and the 
entire IRS volunteered to be a pilot program agency to take a 
look at what were appropriate measures, how they could measure 
them. And it showed, as I say, 3 years ago, 4 years ago when 
these pilots were designated, their interest. We didn't require 
them to do it. They volunteered and said they wanted to be a 
pilot, they wanted to see if they could begin to develop a 
better performance matrix, which, again, as I say is not quite 
consistent with an agency with no interest in these areas or a 
lack of management.
    Mr. Horn. What have we learned from what the IRS pilot at 
this point? What have you learned?
    Mr. Koskinen. What we have learned from the IRS--again, as 
Mr. Mihm said, it is a lot like GAO. They in some ways are 
closer to a private sector analogue because they have 
measurable outputs and they are focused on things like customer 
service. How long does it take you to get in contact with 
someone? How long does the response come?
    There are difficulties in fact, their abilities to improve 
their customer service have fed back into their development of 
systems. What we have been focusing with them on, and GAO has 
for some time and the Congress has, is that the fundamental 
problem with their systems approach was to try to solve all the 
problems that they knew that were out there all at once in what 
we call the ``big bang theory.'' And the private experience, as 
well as the Government experience, is anybody who tries to 
solve a problem in the IT area with a 5 to 8 year big bang, 
usually ends up with a big failure. But they have been 
increasingly focused on what are the appropriate and most 
important priorities in dealing with the public in terms of 
customer service? How can they get a handle on compliance 
statistics? One of the issues we have with them is, how do you 
collect information to determine what the compliance rate is? 
Do you have to, in fact, go through these systemic analyses of 
individual taxpayers from beginning to end?
    So I think that we did learn a lot there. They are focused 
on, in effect, how they can use performance information to 
better serve the public. But I would be happy to hear GAO's 
views as well.
    Mr. Stevens. Well, IRS, their major problem, Mr. Chairman, 
as I think you have hinted at, is they really don't know what 
the tax gap is and therefore what their goal should be for 
closing it and what annual progress they should be making 
toward it. I would agree with Mr. Koskinen in that they do have 
major customer service objectives. They phrase those in their 
strategic plan. I think one of the things we think is worth 
investigating there is the extent to which this gets down to 
the front line tax examiners and agents. And if IRS has a goal, 
as I think they have, of improving customer service to a world 
class level, if the front line examiner still finds that he is 
being--he or she is being judged on how many taxes get brought 
in, there is a disconnect there.
    So one of GPRA's real challenges is to spread that kind of 
consciousness throughout the organization and not just prepare 
a plan that says this is our goal, but have the working people 
unaware of it.
    Mr. Koskinen. And I might put a pitch in now for the 
Clinger-Cohen Act as it relates to this. One of the issues we 
have been trying to get the agencies to understand, and it is a 
fundamental principle of that act which this committee, again, 
was a strong supporter of, is that as you look at any 
acquisition, any procurement, the fundamental question you 
ought to be asking is, how will this help me in the achievement 
of my mission, of my goals and objectives? That it is not just 
a question of, well, this would be nice to have or it will make 
things run faster. What it really causes you to ask, we hope, 
is OK if I buy this system, if I make this improvement, if I 
make this acquisition, what does that have to do with the 
achievement of my goals and mission? How will that improve my 
agency performance?
    Too often we have looked at IT systems in terms of a major 
challenge of did they come in on time and at cost, which are 
important process performance measures. But we have ignored 
saying, but what did we get for it in the long run in terms of 
improved performance? And getting back to the IRS, one of the 
things that I think they are going to be able to do a much 
better job of, we have disaggregated their IT acquisitions, is 
tying the actual development of an individual IT system to an 
improved performance under one of their goals and one of their 
measures rather than simply in terms of processing.
    Mr. Horn. Since you brought up the IT system at IRS, which 
has gone to the $4 billion mark and apparently been a failure 
from all we read in the newspapers, what sort of management 
oversight does OMB provide here when that type of situation can 
occur?
    I might add, it was also $4 billion with the Federal 
Aviation Administration. Apparently, they can't find out 
anything until they hit the $4 billion mark, and I worry about 
that.
    Mr. Koskinen. And you have to. As we have explained, one of 
the reasons, we actually, with then Senator Cohen, worked very 
hard to develop the legislation that passed, because we were 
concerned as well as you as to what were the lessons we could 
learn. GAO had done a marvelous study of the private sector. 
They had isolated 10 of the best private sector companies in 
using IT. They could also. My own experience is there are a lot 
of companies in the private sector that have large scale 
failures in IT in their history and background as well.
    But what the GAO found, what our analysis of the agencies 
found, that there are a fundamental set of principles that 
agencies needed to understand. The first was that they needed 
to take a look at IT questions not as technical issues, but as 
management issues. They had to understand that the right and 
most important questions about an IT system were managerial, 
not about bits and bites. And therefore, we said they had to 
take a look at, when they were automating a process, why do we 
do the work at all? Couldn't we just stop doing this work 
rather than automating it? The question we wanted them to ask 
is, is there somebody else who does this better than we do, 
either in the private sector or some other agency, so we don't 
have to do it?
    The third thing was, before they even got to this, was, are 
we doing the work in the most efficient way of process? Have we 
changed the way we do the work so we can both buy off the 
shelf, if it is possible, but also get the best benefit from 
it?
    The next thing we learned, and the most fundamentally 
important thing was, you had to buy in modules. The best 
private sector companies designed systems that produced 
deliverables in 12 to 18 months. If it couldn't be a 
freestanding, operating result at the end of 12 to 18 months, 
they didn't go forward.
    The FAA, the tax systems modernization, a number of other 
large Federal systems, as I say, were at the other end of the 
spectrum. Their judgment was, we will design a system and in 
over 6 to 8 years, we will solve all of our problems. We will 
push the button at the end of the 8 years and, magically, we 
will have a new system. Nobody in the private sector has been 
able to make that work either.
    Mr. Horn. But we learned that from the FAA and we knew it 
in 1993 and 1994. I was then on the Aviation Subcommittee of 
what was Transportation and Public Works Committee. If we have 
learned that in Congress and we could walk in and know 
something was screwy the minute we put our heads through the 
door when we went out to see the operation, there was no 
management. It seems to me the institutional memory of the 
President, namely OMB, and its management section in 
particular, should have said, hey, GAO has written on this. FAA 
has been a failure. We knew why. Why did we let IRS get out of 
control to do exactly what FAA did?
    Mr. Koskinen. Well, IRS was up and running at that time. In 
fact, in 1994 we did sit down with--we started this process in 
the fall of 1994 reviewing what were the statutory framework--
what was the statutory framework and the requirements that 
caused us to, in fact, keep reinventing the wheel? Ultimately, 
what we did was blow up the Brooks Act with IMTRA. It was not 
only an administrative process that was driving us. We had a 
statutory system that was a great system in the 1960's and 
1970's, but didn't reflect, again, the changes in time which 
contemplated that we could put all the expertise in one area, 
GSA; have all systems approved by GSA, or through delegated 
procurement authority, and then the budget process would 
operate as a secondary issue.
    What the act says now is each agency is individually 
responsible and the head of the agency is responsible for its 
systems. There is only one level of approval, and it is in the 
budget process. And we now have what we call the ``Raines 
Rules'' we have distributed far and wide saying we are going to 
judge your systems by whether they meet these eight criteria. 
And as the Director has said recently, we are on the hunt for a 
large system out there and we are going to try to kill them 
all, to the extent that we can.
    Mr. Horn. I can appreciate that, but I just still don't 
understand it, where the institutional memory is that we should 
have learned from these experiences?
    Mr. Koskinen. Well, I am not sure, as you say, that there 
was much institutional agreement about what this was about 
before 1993 or 1994. As I say, if you went to the private 
sector, I could show you, today, systems that don't work.
    The last study I saw, in the last year or two, showed that 
over half of all private sector systems come in over budget and 
underperforming. And that's in the private sector.
    Mr. Horn. Well, if it is only half, right now can we make 
that statement that we are at the halfway mark; that only half 
of ours are going bad just like the private sector?
    Mr. Koskinen. Oh, I think we have a large number of systems 
and a large amount of money that's being well spent now. And we 
are, in fact, unwinding and coming to grips with the remaining 
two or three major targets of opportunity, I would call them.
    Mr. Horn. I think with Congress mandating chief information 
officers, that's a help. We have got somebody that knows 
something about technology presumably reporting to the two 
principal operating officers of the Cabinet department.
    Mr. Koskinen. Yes, although, again, that comes out of the 
act. And I would stress one thing because I don't want to go 
the wrong way with that, and that is the CIO is important not 
because they understand technology, but the CIO is important 
and we are selecting them because they understand the process 
by which technology decisions ought to be made.
    Mr. Horn. Well, I think we assume that.
    We are going to have a hearing next week on total quality 
management in the executive branch, various types of programs. 
What role did total quality management play, if any, in the 
pilots that were developed to look and move us toward results-
oriented Government?
    Mr. Koskinen. Well, total quality management is a useful 
concept. It is, in fact, one of those issues a little like 
management by exceptions, or zero-based budgeting. It, in 
effect, is an attempt to try to pull together a concept of 
saying we need to get front line workers understanding and 
dealing with headquarters about the fact that we ought to be 
doing--everything we ought to do ought to have quality, it all 
ought to relate to the mission and the operation of what we are 
trying to achieve. There are various permutations on it.
    The Japanese quality circles that Deming trained the 
Japanese on in the forties or fifties is a kind of a total 
quality management issue. In effect, as I say, GPRA is focused 
on that. It is saying, we ought to be involved with basic 
issues about the operation of an agency. We ought to be looking 
at what it is trying to accomplish. We ought to know what its 
effectiveness is. And ultimately, if we do that, we will, in 
fact, end up with total quality performance if you want.
    There is nothing magic in the words. As we noted, we are, 
in fact, in the pilots and across the board, looking at things 
like customer service. We are looking at things like empowering 
front line workers. There is a lot of these concepts out there. 
The ultimate goal is to--in fact, as GAO was saying earlier, to 
make sure that all of these concepts get out of the concept 
stage and get into the operational stage and not just at 
headquarters, not just among all of us in Washington.
    The real question is: Do we have improved customer service? 
Do we have improved performance out in the front lines, in the 
fields where people come into contact with Federal agencies?
    Mr. Horn. When we looked at the Oregon situation, which is 
probably the best example in the United States of an effective 
results-oriented government, they had met with their 
constituency and their citizens. To what degree do all of these 
pilots relate to a constituency that was not simply the 
bureaucratic constituency, important as that is?
    In other words, was there constituent work? A lot of these 
agencies have advisory committees. That might be one, to 
involve them although often they are captives of the agency or 
in similar fields as opposed to the average citizen. Did we do 
any average citizen relating in these pilots?
    Mr. Koskinen. Yes. The pilots that focused on customer 
service and their service delivery to the citizens, a number of 
them, in fact, have surveyed--either surveyed their citizens 
before that--a number of them do surveys as a regular matter--
in terms of customer satisfaction. We now have over 2,000 
customer service standards across the agencies that we have put 
in place in the last 3 or 4 years.
    I can't take you through the 70 pilots and say which of 
them----
    Mr. Horn. Those were used, you are saying, in some of the 
pilots?
    Mr. Koskinen. Right, and some of the pilots were focused 
on----
    Mr. Horn. You might want to file it for the record. I don't 
want to belabor this. I am just curious to the degree to which 
real people were contacted as part of this results goal 
setting.
    Mr. Koskinen. Good.
    Mr. Horn. So let's just file it at this point in the 
record.
    Mr. Mihm. Mr. Horn, may I add something on that?
    Mr. Horn. Yes.
    Mr. Mihm. In our reviews, I would say it was very uneven. 
In some cases agencies, as Mr. Koskinen mentioned, had customer 
service standards or, as a result of the National Performance 
Review, had a pretty aggressive effort underway to survey the 
results of their customers. In other cases, though, it has been 
somewhat disappointing. The agencies seem to be under the 
impression that the requirement in the Results Act that they 
solicit the views of other interested parties can be satisfied 
just by a notice in the Federal Register, ``Hey, by the way, we 
are issuing a strategic plan, if you have any comments, get 
back to us in 30 days,'' type of approach.
    We have been working with the House teams that have been 
formed or through the House teams trying to encourage the 
agencies that the Results Act is about a different form of 
interaction between not only agencies and Congress, but 
agencies and the American people, and that type of approach to 
soliciting views isn't going to be successful.
    The second thing that we have found where it has been quite 
inconsistent is actually embedding routinely customer views and 
stakeholder views into the daily operations of agencies. So 
even those that have been fairly good, and there are quite a 
few that have been fairly good in going out and asking 
customers about what do you want. However, there still needs, 
in many cases, to be the next step to actually embed those 
views into the daily operations.
    Finally, the third thing that has to happen that we haven't 
seen happen in many cases, if at all, which would get them very 
close to what's being done over in the United Kingdom, is 
actually assign consequences to the failure to meet a customer 
service standard. In the United Kingdom, if the mail doesn't 
get there on time you get a subsidy on first class mail. If the 
train doesn't run on time, you get part of the rebate of your 
train ticket.
    We don't do that routinely in the United States and say if 
we don't meet a customer service standard, a published 
standard, something is going to happen that we are trying to 
make the citizen whole. So there is plenty of room that 
agencies can move on to improve on their focus on customers.
    Mr. Horn. Well, I appreciate that response. You are 
absolutely correct.
    I now am delighted to yield to the gentleman from Illinois, 
Mr. Davis, for 10 minutes.
    Mr. Davis of Illinois. Thank you very much, Mr. Chairman.
    Mr. Stevens, OMB was required by statute to make 
recommendations on changes to the GPRA and I would like to hear 
what the GAO would have to say about that. So based upon your 
monitoring, are there any areas that you think we ought to be 
considering some change in?
    Mr. Stevens. No, Mr. Davis, we don't. I don't think we 
disagree with OMB here. The act still has a long way--it is a 
work in progress and has a long way to go until it is fully 
implemented. We didn't come across any killing defects in the 
law, either in concept or implementation. And in our view, we 
should continue implementing what we have rather than think 
about changes at this point.
    Mr. Davis of Illinois. One of the goals of the GPRA is to 
help Federal agencies address fragmentation and overlap in 
their programs. Could you comment on how well you think this is 
taking place?
    Mr. Stevens. Mr. Mihm can probably say more than I can on 
it, but I would note that there is certainly a congressional 
role in this, too. An individual agency has a very difficult 
time, I think, comparing itself to other agencies. There is a 
role for OMB in doing this, because they cross many functions. 
I think there is a role for Congress, also, in making these 
comparisons.
    Not much has been done yet. The last strategic plans that I 
have seen do spell out what an agency does. They don't spell 
out that other agencies do very much the same thing and what 
the coordinated relationships between them are.
    Would you like to add on that?
    Mr. Mihm. Just to add on that, as you know, Mr. Davis, our 
work has shown in program area after program area, there is 
overlap and duplication. We have talked already about the 
problems in economic development programs. Mr. Stevens, in his 
prepared statement, talked about education programs, employment 
training programs. There appears to be at the Federal level, 
which is replete with it, overlap and duplication.
    What the Results Act allows Congress to do, if you put a 
consistent focus on it and require it from the agencies, is to 
over time compare goals across agencies to see if we have the 
consistency in goals and thereby attempt to identify some of 
this overlap.
    Mr. Koskinen mentioned in his statement about the Office of 
National Drug Control Policy. That shows an example of an 
organization of a statutory basis for trying to pull together 
overlap. It has been there a number of years and has made in 
recent years some substantial progress, issued the President's 
drug control strategic plan and is now working on performance 
measures, which shows how long and how difficult this can be to 
identify and address this overlap even when you have a 
statutory mechanism in place. And for many of these program 
areas we don't have that statutory mechanism in place, so it is 
really going to require the Congress--and the House teams that 
have been formed on the consultations are focusing on this an 
awful lot--to really go after the agencies and ask about who 
they are coordinating with in other agencies, how they are 
ensuring that their goals are consistent with the goals of 
other agencies.
    Mr. Davis of Illinois. Do you think that some of this 
overlap, though, is in reality necessary and essential? I mean, 
can we refine the activity in such a way that we take out--I 
mean, can an agency actually fulfill its mission without 
getting into some of the activity in which another agency would 
in all probability be involved?
    Mr. Stevens. I think the Results Act provides the process 
for making decisions like that. Right now, we are assuming that 
is the case because nobody is really examining these cross-
agency relationships. I am not saying a case can't be made. It 
is just--that in very few cases it has been.
    Mr. Koskinen. Let me chime in, if I might, on that. If you 
take the ONDCP, I think it is a great example of the point you 
are getting to. I think of what the experience ONDCP 
establishes is that you have got as many as 50 agencies 
involved in some form of drug policy, either education or 
eradication enforcement. And the argument isn't as a result of 
that that, well, what we ought to do is put all of those in one 
place. It wouldn't take what the Defense Department is doing 
and HHS is doing and the Treasury is doing and necessarily say 
they ought to be in one place.
    What you would say is that they ought to be coordinating, 
they ought to be collaborating, they ought to be, in fact, 
working together toward a common set of goals. But I think you 
are absolutely right, their effectiveness is, in fact, because 
they are tied to programs in HHS, in Education, in the Defense 
Department, and those are integrated.
    So in some ways, I think Mr. Stevens is right. One of the 
things the statute will do is begin to cause us to, in fact, 
more effectively look at the way agencies are cooperating and 
working together toward a common set of goals, while 
recognizing that those goals are best achieved where the 
programs are. Not in all cases. There are some cases where we 
ought to be consolidating.
    Secretary Reich tried, as everybody recalls, to in fact 
consolidate a lot of training programs to in fact create a more 
efficient training program, and then we ran into a lot of 
congressional difficulties.
    But I think those issues are the ones that will be very 
important for us. I have told the agencies, as we go forward, 
one of the major challenges will be in this area. That is, to 
make sure that we are effectively coordinating, communicating, 
and working together across agency lines where it is 
appropriate for programs to be lodged where they are, but it is 
important for them to be working in concert with other agencies 
who are engaged in the same activities.
    Mr. Davis of Illinois. And finally, Mr. Chairman, and 
either one or all, as we continue to refine our systems, really 
analyze what we are doing, look at it as well as we possibly 
can, really understand the capacity that we have to produce in 
certain instances, do we have any outside targets in terms of 
what increased efficiencies and effectiveness we might think is 
out there? I am saying like an athlete might say, if I train 20 
more hours a week, if I shoot another 100 jump shots, maybe I 
will increase my effectiveness by four more points a game, or 
whatever.
    Mr. Stevens. In results-oriented management, Mr. Davis, I 
believe there are some countries that are certainly way ahead 
of the United States and that provide an exemplary benchmark of 
experience that has worked over a long period of time, in which 
major changes have been made and which it has become, I 
believe, even a political benefit. Those include Great Britain, 
Australia, New Zealand, Canada to some extent, Sweden to some 
extent. Within particular program measures, which I think is 
also incorporated within your question, yes, there are outside 
standards that can be used.
    A very good example of this is the Social Security 
Administration. We singled them out for favorable comment 
because of their experience in improving their 800 number for 
answering the telephone requests for information they get. And, 
in fact, they have improved it so much that they have been 
recognized along--in the same scale as some very good mail 
order operations like L.L. Bean for having done extremely well 
in terms of responsiveness and customer satisfaction to them.
    So, yes, and I think using that outside measure has been 
therapeutic to them and also instructive as to what an agency 
can do if the motivations and rewards are there.
    Mr. Koskinen. As a general matter, I think that our goal 
is, in fact, to be the best in class, to benchmark against who 
can do this--who does this the best around and we should do as 
well?
    As the Vice President has said on numerous occasions, if we 
are really good at this, ``good enough for government work'' 
will be a standard of the highest performance, not a way of 
dismissing a standard. And that is where we really ought to be 
going--across the board. I think this statute is a great 
vehicle and catalyst for us to get there.
    Mr. Davis of Illinois. Thank you very much. I have no 
further questions, Mr. Chairman.
    Mr. Horn. I thank the gentleman. I now yield 10 minutes to 
the gentleman from Texas, Mr. Sessions.
    Mr. Sessions. Thank you.
    Mr. Koskinen, have you had an opportunity to see this?
    Mr. Koskinen. Well, my glasses are off so I don't know what 
that is.
    Mr. Sessions. It is that same book just to the left.
    Mr. Koskinen. It is this. Yes.
    Mr. Sessions. Have you had an opportunity to see that at 
all?
    Mr. Koskinen. I have scanned it.
    Mr. Sessions. Well, I must confess, you are ahead of me. I 
have been trying to go through this.
    Without opening it up, I would like to just ask you a 
question. We are sitting here talking about the application of 
GPRA and all of these things and the plans, and we are 
hopefully going to have them go down to the lowest level of 
manager and worker within the Government to where they feel 
like that not only do they comply with the mission statement, 
but that what they are doing is of great benefit. And we have, 
I think, generally said that we think this will help improve 
not only the performance, but the measurements and the 
effectiveness of an agency.
    How well do you think or to what extent do you think that 
the Federal managers would respond if they said that this work 
that they are doing has had an impact on their agency up to 
now?
    Mr. Koskinen. Before I came to the Government, I spent 20 
years managing large-scale failures in the private sector, 
where you would have thought people would have been--and they 
were--in great shock, large enterprises like the Penn Central 
or Mutual Benefit Life Insurance had failed. Our experience in 
those most difficult circumstances were that when people felt 
that they were part of the solution, not part of the problem, 
where they understood your point, that what--how what they were 
doing related to the ultimate mission and success of the 
enterprise, they responded with great enthusiasm and worked a 
lot harder and longer than you could have asked them or made 
them work.
    My experience in the 3 years I have been in the Government 
is that Federal employees are at least as motivated as those in 
the private sector. People came to the Government because they 
were committed and dedicated to the mission and roles of their 
agencies. And that if we can accomplish just the paradigm that 
you describe, I think we will find a tremendous increase in the 
level of enthusiasm and morale, as well as productivity and 
effectiveness of our work force.
    But it is a great challenge because we have to, in fact, 
beyond everything else we are doing, change our concept of 
management. We have to catch up with the private sector. We 
have to understand that top down hierarchical control no longer 
works, whether it ever did in the past.
    As I have said in the past, General Motors went from 13,000 
people at headquarters to 1,300 not just to reduce costs, but 
as a way of, in fact, eliminating unnecessary layers between 
the people actually doing the work and the people running the 
companies.
    We need to reach out more to our employees, not just to 
energize them, but ultimately to recognize that they really 
know what is going on in our organizations. They know what the 
obstacles are. They know what unnecessary rules and regulations 
there are that interfere with their ability to perform with 
their job. So they have the information we need if we are going 
to continue to adjust and improve our performance.
    I think your question is exactly right. They represent a 
great resource for us, and I think that they would respond 
enthusiastically and effectively.
    Mr. Sessions. Do you perceive that up to now that this has 
been an exercise by headquarters in each of these agencies or 
that it has gone down within--permeated the agency to where 
some of those regional managers have gotten involved in this 
process?
    Mr. Koskinen. Like the answer to all of these general 
questions, I have decided all of life is a bell-shaped curve. 
You have some agencies that have reached out and actually 
brought in regional managers, tried to bring in front-line 
employees. We have encouraged that.
    There are clearly no other agencies, very large agencies, 
where they have, in fact, done it more than headquarters. As I 
noted, my concern is that we not in this process create the 
expertise in a small few people who are the GPRA experts; that 
we need to have these be operating documents. So we continue to 
push the agencies to understand that, ultimately, they can 
manage effectively only if they have support at the top, but if 
they involve people on the front lines at the same time.
    We won't succeed without leadership from the top of the 
agencies, but we will not be successful if we do not involve 
and energize people at the very bottom of the agencies at the 
same time. That is basically the kind of Zen conundrum that 
challenges people trying to make management change, and we need 
to work both ends. I think at this stage it is the minority of 
agencies that have done that, but we are continuing to 
encourage them, and I hope over time more of them will do that.
    Mr. Mihm. Mr. Sessions, we have some data that can speak 
directly to that.
    Mr. Sessions. Absolutely, and I am going to get to that.
    Mr. Mihm. OK. I am sorry.
    Mr. Sessions. I will get to that in just a minute.
    I want to pat you on the back. I think what you said is not 
only exactly correct about people wanting to have and be a part 
of the process and have a process and make their jobs better. 
But several months ago I was down in Dallas visiting an FAA 
installation, and if you are in Washington for even small 
periods of time, you have heard about the FAA and their 
management structure and some of the decisions that they make 
and perhaps they are one of the most, I will be careful here 
without picking on any of the management, perhaps their 
decisionmaking process and the things that they buy are not 
leading edge.
    That is trying to be very polite, Mr. Chairman. But when 
you go down to Dallas, TX, and you talk with a front-line 
manager, they are completely--the two I talked with were 
unaware that there was even a problem; that someone even made 
an accusation that their agency was not in complete compliance 
and that they weren't leading edge. In other words, it was kind 
of like they didn't even know about the disagreement.
    And I, as I look on page 87, I would like to draw your 
attention to--and you answered what would be on page 88, I 
believe. But page 87, is the distribution of Federal managers 
expressing an opinion on the extent to which implementing GPRA 
to date had improved their agencies' programs. And that is why 
I asked are these lower level, where the rubber meets the road, 
are those people involved in GPRA to where they feel like they 
are being asked and being heard from? Because if you look, it 
says--it looks like to me that about 1 percent, very great 
extent, and 9 percent, a great extent. So that is about 10 
percent.
    And then if you flip the page, you will find that it goes 
up, that they want to be involved and feel like if they were 
part of the process, it then goes to some 36 percent from 10 
percent. And so my--I don't know whether I take this to a 
conclusion, but I would like for you to hear me say I wonder 
how well it is being sold throughout all the way down to that 
bottom line person.
    Let me end with this: About a year ago, and I am not taking 
advantage of anybody who is from Chicago, Mr. Davis, at all, or 
from Illinois in any of this, there was a huge flood that came 
in the wintertime in Chicago. In fact, it was not a surprise to 
the people who had known about the problem. They simply did not 
want to spend $10,000 to fix the flood--the problem before the 
flood came and it cost over $1 billion.
    This is the kind of thing that we could tell the stories 
over and over about how lower level management people being in 
touch with whatever their job is and that should reflect not 
just from an agency's perspective of what they are about, but 
all the way down to their performance appraisal.
    So I hope that--not to take advantage of you or anyone 
else, but I hope that we see that this flips over with what 
they see the current standard can be and how it can impact 
them. Thank you.
    Mr. Horn. I thank the gentleman.
    Let me just pursue a number of questions here, and then 
I'll turn to Mr. Davis again.
    Was the Cabinet ever briefed on the results-oriented 
government effort? Did you have a chance or the Director of OMB 
have a chance to brief the Cabinet on it?
    Mr. Koskinen. Yes. Actually, in either January or February 
the director spent some time in the Cabinet briefing describing 
the act--we had a number of new Cabinet members at that time--
their responsibilities; the fact that, as we told them, there 
were a couple of things that they ought to be aware of. One is, 
these were agency plans that they were responsible for and 
that, at a minimum, they ought not to be embarrassed in the 
fall and have a plan out that they didn't understand or didn't 
know; and, even worse, they ought not to have a plan out there 
that they disagreed with that ultimately the people were going 
to expect that the Cabinet Secretaries understood and had been 
involved with the strategic plans that had been produced.
    We've spent a lot of time at the President's Management 
Council, which I chair, which is the deputy secretaries of the 
agencies and the chief operating officers, over the last 3 
years, talking about the challenges and opportunities in 
turning their organizations into performance-based 
organizations.
    Mr. Horn. On your early returns, as you look at the various 
pilots, do most of the problems that exist on not having 
perhaps as results-oriented a government as we would all like 
to have; to what extent is that related to the current 
personnel policies of the Federal Government?
    What I'm getting to is one category that comes to mind, and 
I don't know if there is any pilot that relates to it. It seems 
to me when people are given responsibility for millions, tens 
of millions, hundreds of millions, and billions of dollars in 
some agencies on procurement, that we ought to make sure those 
people are happy, they see a progression, and they get constant 
training on improved methods. What I'm thinking of is sort of a 
special class within the civil service that would reward 
procurement officers for this type of responsibility. I just 
wonder what you're getting out of the pilots that you've had a 
chance to go through that says we better do better by a lot of 
our public servants and procurement than we are doing?
    Mr. Koskinen. Well, I think you're exactly right. It 
applies across the board, obviously.
    Again, one of the great presentations we had at the 
President's Management Council about a year, year and a half 
ago, was from the interagency training leaders who said that 
their biggest challenge was making sure the people asked the 
strategic question: What were we training people for? Their 
concern was that people kept being sent to training, it was 
their training, but without an understanding of, again, how did 
that relate to improving their agency performance.
    But part of our problem with the personnel system isn't 
that we haven't held people accountable or isn't that we 
haven't, in fact, looked at their performance. The problem has 
been performance focused on process. We have been a compliance-
oriented system, for understandable reasons. Every time there 
has been a problem or failure, or something popped out up in 
procurement or other areas, we had a new rule that we would 
say, this is the way to do it, so that we have been a very 
process-oriented personnel system and have not necessarily been 
a results-oriented, other than the result of, don't violate any 
of these rules.
    So that we need to do exactly what you're talking about, 
and procurement, we've worked with it. Steve Kelman and the 
head of the Office of Procurement Policy are working on it. We 
look to look at training. We need to look at positive 
reinforcement in terms of performance appraisals and 
compensation, in terms of achieving the goals and objectives of 
the procurement system. But those goals and objectives also 
have to be more than complying with the rules. Everybody ought 
to comply with the rules. But the goals and objectives of the 
procurement system ought to be furthering the performance and 
effectiveness of the agency.
    Mr. Horn. In the pilots, the three approaches you had, you 
stressed performance, planning, and reporting in some pilots, 
managerial accountability and flexibility, and then performance 
budgeting.
    Now, the second pilot on managerial accountability and 
flexibility, I gather, really never got off the ground. And I 
guess what I would ask is, of both GAO and OMB, if we could go 
back to 1993, what sort of pilots and in what sequence would 
they occur to be most helpful in providing the experience and 
the lessons agencies would need to have had earlier in order to 
get more consistent success with the results-oriented 
government approach?
    Mr. Koskinen. I'm not sure, if we've done anything 
differently, we would get farther along than we are. I think we 
made good progress.
    I think had we known or the authors known when drafting the 
statute with regard to flexibility all that was going to happen 
in terms of procurement reform, personnel reform, and 
regulatory reform, we might have spent a little less time 
focusing on flexibility from administrative rules and we might 
have actually developed flexibility pilots that would have 
provided flexibility from statutory limitations, which I think 
was the biggest need the agencies felt they wanted to 
experiment with; that we had no authority under the statute to 
grant. So I think it might have been very helpful to have that 
pilot.
    As I noted in the past, our performance-based organization 
concepts, in effect, are flexibility pilots with flexibility 
from statutory requirements and limitations. I think we might 
also have early on had a few pilots, although we had 
experience, in the area of strategic planning. We produced case 
studies. There are 22 of them now on the Internet that we 
produced with the American Political Science Association of--
from agencies on strategic planning, performance planning, and 
performance measurement. We produced those case studies to give 
people object lessons on what actually did work or didn't work.
    We encouraged the agencies to include in those studies the 
problems they had, the failures they had, where they went 
wrong. And a couple of the best case studies had been about 
strategic planning, where the agencies talked about blind 
alleys they went down, the difficulty of pulling plans to go 
together. And I think, in my own view, we might have had a 
strategic planning pilot at the front end where we might have 
had a few more case studies to demonstrate the difficulty of 
this as we move forward.
    But I would be interested in the GAO response.
    Mr. Mihm. Well, one thing on the strategic planning, just 
to remind you, Mr. Chairman, under the performance plans, 
agencies were to have had a strategic plan in place for at 
least 1 of the 3 years that they were doing the performance 
plans; that would be either fiscal year 1994, 1995, or fiscal 
year 1996. So there was at least some effort there within--by 
the authors of the Results Act to have a strategic planning 
component, although that strategic plan didn't have to be GPRA 
compliant, meaning they didn't have to consult with the 
Congress.
    In terms of the managerial flexibilities, I think one of 
the--even though none of the pilots were chosen ultimately by 
OMB, we learned some very valuable lessons there, and that is, 
when we went to--when OMB went to the agencies asking them for 
waivers, what they came back with was a lot of statutory 
waivers or requests, as Mr. Koskinen mentioned. They also came 
back fundamentally with answers that agencies were finding that 
the--fundamentally, the constraints that confront agencies are 
of the agencies' own creation, it's not something that's based 
in regulation. It's not ultimately something that's often based 
in statute, although, as I mentioned, they did have some 
problems with those. But agencies have imposed requirements 
upon themselves.
    Mr. Sessions was asking earlier about the extent to which 
this has penetrated down to field locations. Some of the most 
interesting requests for waivers came in from field locations 
to their headquarters units.
    It was interesting being in those meetings where the 
headquarters units had to admit, well, gee, OMB wasn't doing 
that to you, we in headquarters are doing that to you. There 
was some agitation, to put it nicely, and, as a result of that, 
we've reported on one of those over at the Corps of Engineers 
that they made some substantial changes in the procurement area 
that were requirements that were imposed upon field locations 
because of requirements from headquarters.
    And it's not real clear to us that we would need to have--
in retrospect, that we should have changed the sequence of the 
pilot phase, because I think we learned some pretty good 
lessons all along.
    Mr. Horn. I'm sort of amused and completely agree with your 
comment, having been in State government for a long time, 
exactly the same problem, where agencies were blaming the 
control agencies in Sacramento, the equivalent of OMB in 
California being the Department of Finance, which is the 
Governor's management arm and budget arm. And the problem was 
within their own agency, and these things just crept up, and 
the people who were around that started 30 years ago aren't 
around anymore, and the newcomers take it as gospel out of the 
capitol. So I'm glad to see those things are rushing to the 
surface and we're dealing with them.
    You mentioned in your testimony on GAO five key challenges 
to successfully implementing the act. And there are many 
challenges to instilling a results oriented mind-set, let's 
face it. However, I would like to know what are the factors you 
think are the key to better goal setting, better measurement, 
better information, and the use of that information to make 
real improvements? When you look through all these different 
filings, does something stand out there that, if we could do 
nothing else, we ought to do that?
    And I'm sort of using an analogy when I've got an academic 
Senate to agree to the student evaluation of the faculty. You 
could ask 50 questions; you could ask 10 questions. It really 
boils down if you just asked one question.
    Mr. Stevens. Yes.
    Mr. Horn. The data return would be exactly the same.
    Mr. Stevens. My response to that, Mr. Chairman, would be 
something that is, in large part, under congressional control. 
That is, what will determine the success or failure of the 
Results Act is the extent to which the volumes of information 
that the act will require agencies to produce and the extent to 
which that information is actually used in decisions that 
matter to the agency--budget decisions, oversight decisions, 
and legislative decisions.
    The surest way to ensure that the act does not succeed will 
be for this information to be produced, to be available at some 
cost, great cost in some cases, and to find that the people 
making the real decisions affecting the agency, many of whom 
are right here, ignore it. Assuring that this really becomes 
the basis for decisionmaking is, to me, the sine qua non for 
success of the act.
    Mr. Horn. I now yield 10 minutes to the gentleman from 
Illinois, Mr. Davis.
    Mr. Davis of Illinois. Thank you very much, Mr. Chairman.
    Mr. Koskinen, the chairman touched upon the Defense 
Department in an earlier sequence, and we know that it 
represents almost half of the discretionary spending. DOD has 
stated that its Quadrennial Defense Review, the QDR, will be 
used to satisfy the requirements of GPRA's strategic plan. And 
even though the QDR does not seem to contain all of the 
elements required of the GPRA strategic plan, do we know if DOD 
will submit a GPRA-compliant strategic plan by this deadline of 
September 30th?
    Mr. Koskinen. It's our expectation that they will. The QDR 
just came out in the last couple weeks. We are reviewing that 
with the Department in the face of this question, which we have 
as well, which is, does the QDR meet the requirements of the 
act?
    The Department's view, appropriately, is the QDR is based 
on a statement of the mission of where we're going with our 
armed forces, what the challenges are over the next several 
years, a set of goals and objectives, performance measures, and 
strategies. So that a substantial volume of the information 
that one would expect one would have from an agency in terms of 
its strategic plan for the next several years is contained in 
that.
    The real question over that we're all looking at is, does 
it portray that in a way that provides measures against which a 
performance, annual performance plan, can be held accountable? 
Does it describe some of the issues that the act requires to be 
described in a way that are appropriate?
    I think the bottom line is that, to the extent that 
additional information is needed, it should be easily provided, 
I think, because the QDR does provide the most difficult parts 
of the strategic plan, which is the statement mission, the 
goals, the objectives of the Department and the external forces 
that the Department faces over the next several years. But the 
bottom line is that we are focused within the Department that 
ensuring that in September they produce an acceptable strategic 
plan.
    Mr. Davis of Illinois. And they have not indicated that 
there might be any unusual difficulty or circumstances or 
that----
    Mr. Koskinen. No. Actually, the Department at large has 
done over the years probably as good a job as by far most of 
the agencies in terms of looking at longer-term strategic and 
planning objectives. When they have a 4- to 5-year budget 
horizon, those aren't just spreadsheets, they actually have 
meaning and policy behind them. So that there is a fairly good 
history of development of performance measures, and in a 
budgetary sense as well as in a programmatic sense. So I think 
that to the extent that decisions need to be made to the QDR to 
provide a full-fledged strategic plan, that should not be the 
problem.
    Mr. Mihm. Mr. Davis, the challenge all agencies are facing, 
but particularly pointed at DOD, is being able to draw a 
linkage between the broad strategic goals or statements that 
may be in the QDR or will be in a strategic plan and the daily 
operations that are taking place throughout the Department. 
This is something Mr. Koskinen mentioned was a crosscutting 
issue that OMB had with most agencies' strategic planning 
efforts. It's going particularly a challenge within DOD.
    We've done some work recently and wrote to the Secretary of 
Defense on this, identifying problems and linking logistic 
strategic plans to the overall logistic plan for the 
Department, information technology at various component levels 
to information technology strategy for the whole Department, 
and, in fact, when we went and spoke with the key GPRA 
officials in various defense components, this was one of their 
real concerns. It wasn't real clear to them what the Results 
Act would mean to them down at a component level or within the 
military service or defense agencies.
    Again, getting back to Mr. Sessions' point of making sure 
that the strategic decisions that are being made at a 
departmental level and in consultation with the Congress really 
mean something in terms of the wheels turning back within an 
organization is something that DOD and other organizations will 
be challenged by.
    Mr. Davis of Illinois. OK. The GPRA requires agencies also 
to consult with their stakeholders as the strategic plan is 
being developed. Who does DOD consider to be its stakeholders, 
and how are they going about consulting with them?
    Mr. Koskinen. That's a good question. They obviously have a 
major consultation process that inevitably will occur around 
the QDR with the Congress as they go forward. Many of the 
agencies are consulting with each other. As we discussed 
earlier, they in effect provide services to or receive services 
from or work, hopefully collaboratively, with agencies in a 
range of areas. So we've been encouraging agencies to in fact 
share their plans as appropriately across the lines. And I 
think the Defense obviously provides a range of services in 
other areas as it goes forward.
    The more difficult question to analyze, and I don't have 
the answer off the top of my head, is who outside the 
Government are stakeholders for the defense strategic plan, who 
should they be discussing their plan with. And that really in a 
lot of ways rises to the level of international policy and 
treaty and the relationships we have with security 
organizations and treaty operations around the world. And I'm 
not sure anybody has really dealt with yet whether, and to what 
extent, those are stakeholders that should be consulted.
    Mr. Davis of Illinois. So in all probability I guess we 
could say that they're still being defined.
    Mr. Koskinen. I think that's a very felicitous way to 
phrase it.
    Mr. Davis of Illinois. That as we keep looking, I mean we 
keep finding and we keep finding out, I would assume.
    Mr. Koskinen. Yes.
    Mr. Davis of Illinois. My final question, Mr. Chairman: 
GPRA attempts to force the Government to focus on results and 
may require significant congressional oversight if it's to be 
effective. Do we think that implementation of the GPRA process 
in Congress may strengthen the case of those who advocate a 2-
year budget cycle, focusing 1 year on appropriations and 
oversight on the next?
    Mr. Koskinen. And your question is, would that be helpful?
    Mr. Davis of Illinois. [Indicating in the affirmative.]
    Mr. Koskinen. I think it's always hard to know for sure 
what will happen when you make process changes. But I think to 
the extent that our recent experience anyway over the last 
several years is that most of the time has been spent on inputs 
or the budget process, how many--where are the resources going 
to be allocated, as I say, in the last 3 or 4 years it's sort 
of been an endless process which has left less time for 
oversight.
    I think to that extent we would have, I think, perhaps the 
opportunity in the budget process to focus on results and in 
the off year, as it were, to spend time looking at internal 
structural and organizational issues.
    We've provided to those supporting the biannual budget the 
necessary technical adjustments to GPRA to make it consistent 
with that, and, as a general matter, we've supported the 
biannual budget process for the reasons you suggest, which is, 
we think we would end up with a more constructive dialog about 
a wider range of issues.
    Mr. Davis of Illinois. Is there an increase in multiyear 
budgeting, I mean across the board, I don't mean the Government 
but outside government?
    Mr. Koskinen. I think most organizations that I'm familiar 
with still budget on an annual basis. The best organizations 
run against a longer-term plan, business plan, strategic plan 
that has generally no longer than a 5-year horizon where people 
understand the real effective timeframe is probably 3 years, 
and done well. And we've been through a number of organizations 
that have never done it before; done well.
    The way people view it is, the budget is the first year of 
the next plan, and the plan becomes a rolling plan that gets 
redone every 3 or 4 years in total, but you continue to measure 
against those objectives as you go forward, which means that 
each year you do not de novo start with the budget process 
again.
    To some extent, the congressional budget process seems to 
have elements on occasion as if we didn't know anything from 
last year and we're going to start this year with the same 
arguments and same debates.
    So one of the hopes would be out of GPRA and strategic 
planning in the 5-year budget agreement to get to balance in 
2002--is that we would have more of an idea and a shared 
expectation as to where we're going to be, and we can measure 
ourselves and debate within those frameworks rather than sort 
of starting de novo each year and saying, ``OK, this is a new 
year, a new budget, let's start all over again.'' Most 
companies don't do it that way.
    Mr. Davis of Illinois. Thank you very much.
    I have no other questions, Mr. Chairman. I've always 
wondered what would happen if we were to collect our money 
first and then spend it as opposed to spending it and then 
collecting it.
    Mr. Horn. You mean we might keep some?
    Let me ask both of you this question. We've talked about 
the agencies, and the ones that have adequate data bases where 
they can use some of that data in the performance sense of the 
word. And we've talked about accounting systems. I mentioned 
the 49 different ones in the Pentagon. We didn't get into the 
hundreds of different computer systems that can't relate to 
each other and need some linkage to do that.
    And I guess that I've learned this is usually the agency 
Inspector General is sort of an invaluable source to find out 
if there's adequacy to an agency's data base and its various 
systems. And I guess I would ask both the executive and the 
GAO, in your opinion, is that a proper role for Inspectors 
General to play? And to what degree have we involved the 
Inspectors General in this process? Is it strictly a matter of 
agency judgment, or are we getting the benefit of their 
somewhat objective view as they look at the agency and its 
weaknesses and its strengths?
    Mr. Koskinen. One of the large number of speaker agency 
groups I chair is the two groups--or are the two groups that 
composed of the--or comprised of the Inspectors General from 
across the Government. And over the last 2, 2\1/2\ years, we 
have spent a significant amount of time discussing GPRA and the 
appropriate role of the Inspectors General to it. And their 
consensus is that they do have an important role to play 
defined really as you describe it. They view that their role 
has focused on the integrity of the data collection process, 
whether systems are appropriate for delivering it.
    They are careful to note that they do not have the 
resources and don't think it's appropriate to even consider 
having them. That they will be--are not going to be auditing 
every piece of performance information since there will be a 
substantial amount of volume, but, on the other hand, they 
think it is appropriate for them to provide the agencies and 
the Congress and us, their view in terms of the adequacy of the 
data collection process, the integrity of the data as it's 
provided over time.
    They also have decided and noted that they do not think it 
is their role to define for the agency performance measures. 
They think that's an appropriate political judgment for the 
Congress and the agencies to, in fact, discuss in terms of 
mission goals and objectives. Those are set legislatively as 
they go forward. But as a result, I expect that across the 
Government, the Inspectors General are prepared to play a role 
in ensuring that the performance information itself is valid, 
has been collected in an appropriate way, and in fact is being 
accurately presented.
    Mr. Horn. Would GAO like to----
    Mr. Stevens. I think that corresponds with our view of the 
Inspector General's approach to the Results Act, too.
    Mr. Horn. It's been mentioned several times by many members 
that were into the bit of consultation at this point between 
some of the agencies and some of the appropriate congressional 
committees. Is it your reading that we will be able to do this 
in a timely manner, according to the act? Or are we going to 
have dropoffs off the wagon as consultation goes on? What's it 
look like?
    Mr. Koskinen. No, I think we're making good progress. I 
think, in 80 percent of the cases, there's meaningful and 
constructive dialog going on. I think we will be able to 
identify, with the Hill, the agency or two that may be having 
difficulty and work jointly to ensure that the consultation 
process has meaning.
    As I've noted in several cases in the past, we at OMB feel 
very strongly that the consultation process is an important 
part of the act, and we are anxious to make sure that it gets 
done on an agency-by-agency basis. And I am confident that, 
with our joint efforts, everyone will participate in that 
process.
    Mr. Horn. In other words, you're saying with the majority 
leader having a major role, at least in-house consultation, 
there shouldn't be a problem in getting the executive agency in 
touch with the appropriate committees?
    Mr. Koskinen. That's correct.
    Mr. Horn. And you on your side will certainly be sure that 
the executive agency is prepared to consult and has most of 
their ducks in a row before they come up here?
    Mr. Koskinen. Yes.
    Mr. Horn. OK. So we don't have to worry about that one.
    I guess what I'd ask is a very broad question. We go 
through these phases of management reform in the private 
sector, we go through them in graduate schools of public 
administration and business, and we go through them in 
Government. And I guess I'd ask you, John, what do you expect 
from a strategic plan? What's strategic about it, in your 
judgment?
    Mr. Koskinen. Well, again, just to sort of repeat where 
I've been earlier, I think a strategic plan, and probably the 
important thing about a strategic plan is a process by which 
you get it, that if you can involve the agency leadership, if 
you can involve frontline workers, if you can involve the 
Congress, and ultimately if you can involve the public over 
time in a discussion about the roles, goals, and missions of an 
agency and its objectives. How is it going to hold itself 
accountable, what are its goals, what is its performance, that 
you will create, in effect, a management document.
    And I think Mr. Stevens is exactly right. We need this 
report and the active involvement in the Congress to justify 
the time and effort the agencies are putting into this in terms 
of the dialog. Although I have been pushing to the agencies 
that the information they're collecting is important, if it's 
done correctly and if it's in the context of goals and missions 
and objectives, and that they ought to be doing that even if 
nobody on the outside asked about it, because it's important 
for them to be able to manage more effectively.
    As I said at the start of my testimony, our resources are 
clearly going to be constrained over the next several years. 
Therefore, the only way we're going to expand the effectiveness 
of programs and of Government is, in fact, to be more 
productive in the way we do our work. The only way to do that 
is to get information back on a regular basis about what impact 
we're having, how effective are the programs, what can we do to 
increase that effectiveness, and, at least half the time, what 
we can do to increase the effectiveness is not spend more 
money?
    What we can do to increase the effectiveness is to change 
the way we manage, but we won't know that and we won't know the 
implications of that if we're not collecting performance 
information in the context of an overall strategic plan.
    Mr. Horn. Does GAO have a comment?
    Mr. Stevens. I would respond, Mr. Chairman, that there was 
a hearing not long ago in which Mr. Armey, the majority leader, 
sat in this very chair, I believe, and provided what I believe 
was an answer to that question. He tied it to the opinion of 
the American people and pointed to the low confidence of 
Government and the perception that many people have, that they 
are not getting very much for the tax dollars they're sending 
to Washington.
    And I think the discipline of the Results Act will provide 
the knowledge of what that money is going for. It still may not 
be satisfactory information. It may lead to changes, but it's 
knowledge that we really just now do not have: What are we 
getting for that tax dollar?
    Mr. Horn. Well, it's an interesting comment, because many 
Members of both parties and all ideologies do a survey often of 
their constituency. It isn't a legitimate random sample or 
anything, it's just, you send out the newsletter and there's a 
coupon attached to where you are to make certain judgments, and 
we tote them up, and see what it does.
    It so happens I've also done legitimate random samples, and 
it's my universe that responds is exactly in accord with the 
legitimate random sample. And here's what they sort of feel, 
and other Members have confirmed this in their constituency: 
You ask them at what level is governmental money wasted, the 
Federal, the State, or the local? And it's amazing around the 
country that 50 percent of the Government's money is wasted at 
the Federal level; maybe 35, 30 percent is wasted at the State 
level; and maybe 15 percent or so or 10 percent is wasted at 
the local level.
    Now one obvious observation on that subject is, when 
they're close to the Government at home and they can go down to 
city hall and harangue the mayor and the council members or 
they can wake the councilmen up or the councilwoman up at 2 
a.m., and say, hey, the garbage truck hasn't come yet, it's a 
little hard to find Members of the Congress, it's a little hard 
to find the Cabinet officers, and at the local level you can 
find them.
    So I would think that when visible Government is there to 
listen, that we get a better reaction out of it. I don't know, 
you've looked at a lot of surveys, I'm sure, in the 
administration.
    Mr. Koskinen. Well, I think that's right. And it's not 
inconsistent with Mr. Stevens' point, which I support, which I 
would say would be a corollary to those numbers, which is that 
the closer you are to the delivery of the service and the 
Government providing it, the more you understand and oftentimes 
support that service. The farther away you are from the 
organization, the harder it is to bear in mind what it is that 
the organization is trying to achieve.
    So that, as Mr. Stevens said--and I was here with Mr. 
Armey--I think it is correct that one of the things we've 
gotten away from over the time is continually reminding and 
explaining to the American public where we do what we do, what 
are we trying to accomplish with each of these specific 
programs and activities, which is part of that explanation, so 
people will understand why we're spending this money. Because 
part of the assumption of waste that we've seen in those 
surveys is waste not because we're ineffective, but it's waste 
because it's a program that they don't particularly support or 
understand why it is that it runs.
    To the extent we can better articulate what our mission is 
and our goals and objectives, that will help. But the corollary 
is that to the extent we can also say that we're holding 
ourselves accountable for achieving a result, I think we will 
increase significantly the confidence in people that we're not 
wasting the money.
    The experience in Britain and other countries has been that 
rather than having people object to the inability of the 
Government to achieve its performance standard, there's been a 
tremendous outpouring of support for organizations that care 
enough to even point to a goal and are actually striving to 
meet it. I think what we need to do, and what this act will 
allow us to do in a lot of areas, is to explain to people not 
only what we're trying to accomplish, but to tell them that we 
actually have goals for what the results are and that we're 
actually going to every year try to get better at it. If we can 
convince people that we're legitimately and honestly trying to 
do that, I think the level of confidence in the Government and 
the level of support for it will increase.
    Mr. Horn. Could you describe the type of group you have on 
your staff that is imbued with results-oriented government, 
that is knowledgeable about the British, Australian, New 
Zealand, Canadian, and Oregon experiments. Where's the 
institutional memory in the executive branch that can go out 
and help a Cabinet officer understand how this works so he or 
she gets imbued with the spirit?
    Mr. Koskinen. Well, I spent 3 years, with the support of 
two different directors and the strong support of two different 
directors, in effect, trying to turn the entire organization of 
OMB into that organization.
    I think that the one thing to remember, as we all know, is 
the Government is a very large enterprise. When you have almost 
2 million employees, we need to have that expertise in more 
than a handful of people.
    We have over 500 people at OMB. We have a significant 
amount of our time spent looking at resource questions. And I 
think we've been very successful over the last 3 years training 
and engaging those people in a dialog about why a fundamental 
part of the resource question is, what do we get for those 
resources, so that the institutional memory, if we're 
successful, and we're working on it, will be that the entire 
organization will be results oriented. The entire organization 
will be in communication with the agencies about these matters.
    I've talked about the reviews we've done in 1995 and 1996 
and this year. Those reviews aren't being done by a handful of 
my people who aren't very knowledgeable; those reviews are 
being done by the agency, OMB. The dialog going on with the 
Cabinet Secretaries, budget officers, and managers are dialogs 
with their normal program examiners. We've done a lot of 
training and a lot of dialog to get our end of the group up to 
speed. But I think that's the only way it starts, and even that 
won't be sufficient.
    The real goal, obviously, is to get people in the agencies 
who understand this and themselves to, even if we quit talking 
to them about it, which we don't plan to do, but that's the 
only way it's going to work. It won't work, as you and I have 
discussed in the past, if I had 10 more really great GPRA 
people. That's not the way it's going to work. The way it's 
going to work is if we at OMB and in the executive branch, and 
as, Mr. Stevens said ultimately, you in the Congress in your 
decisions continually resonating back asking questions about: 
What are the results? How much did it cost to get those 
results? What do we need to do differently to improve those 
results? Only then will we actually see the successful 
implementation of this act.
    Mr. Horn. Where do you find the budget examiners fitting in 
this process?
    Mr. Koskinen. Where do I find----
    Mr. Horn. Are the budget examiners going to still go about 
reviewing the budget as they always have?
    Mr. Koskinen. I know actually----
    Mr. Horn. OMB, frankly, hasn't been thinking much about 
management or results or performance or anything else, just, 
how much do you need? And we only have so much to give you.
    Mr. Koskinen. Right. We actually call them program 
examiners now. And one of the reasons we've changed that name, 
and changed the structure of the organization through OMB 2000, 
is to ensure that the budget dialog and process is not just 
about inputs, that it is, in fact, about structure and 
organization and outcomes.
    Many of the program examiners or budget examiners in the 
past asked those questions. We're very focused on education 
programs and other programs, what were the results of what we 
got for the money, and what we're trying to do now is 
institutionalize that, not only within OMB but within the 
agencies, so that they understand that resources are not a 
question just about inputs, they are a question about outcomes.
    Mr. Horn. When will we get a budget submitted by the 
President that looks at the outcomes on the budget page as well 
as the budget numbers past, present, and proposed?
    Mr. Koskinen. Well, the great joy of the statute is, it 
requires us to produce a governmentwide performance plan with 
the next budget, and we plan on doing that.
    Mr. Horn. So in February of next year we'll see it for the 
next fiscal year?
    Mr. Koskinen. Yes, and in fact as we've discussed this 
internally, I have an agency-wide implementation group for GPRA 
drawn from all the program examining divisions, increasingly 
done well. The budget ought to be, in effect, a performance-
based document, and to a large extent it already is. There is a 
lot of performance information in the budget.
    But again, the focus on the Hill and in the dialog has 
probably been on the input side. So we don't think it's a major 
change for us to turn the budget document into a results-
oriented document. And we plan to do that.
    Mr. Horn. Does GAO have a comment on this discussion?
    Mr. Stevens. Not yet, Mr. Chairman. We will.
    Mr. Koskinen. Forewarned is forearmed.
    Mr. Horn. You want to see who survives; is that it?
    I'm curious about the consultation so far, in your judgment 
and also GAO's judgment. As you've said, if we're simply going 
to have this dialog go on up here, and it isn't translated into 
how we make decisions and you make decisions, and there isn't 
agreement, let's say, on the performance standard and what they 
ought to look like if we're going to take them seriously up 
here and not just fluff, and we can count that so we gave you 
that--and I guess that's where I'm curious, what's your feel 
for the consultation thus far as you hear about it?
    Mr. Koskinen. I think we have room for improvement--on both 
sides. We have some agencies--a small number--that need to be 
responsive promptly to the interest in having strategic plans.
    From the congressional side, we've had very good and strong 
support from the majority leader's office, the Speaker, and 
from this committee. But we need in some areas, for specific 
areas, we need more involvement from appropriators and 
authorizers.
    The House in this area of consultation generally is the 
head of the Senate. Some specific Senate subcommittees or 
committees have engaged in very important consultations, but a 
lot of them have not yet. There are indications that more are 
starting. But again, I think that we need to broaden the base 
of consultation from the congressional side at the same time as 
we're encouraging the agencies to hold up their end of the 
bargain.
    Mr. Horn. Does GAO want to add anything to this?
    Mr. Mihm. Yes, Mr. Chairman. Mr. Koskinen spoke quite a 
while ago about, we all agree there's a bell curve, we just 
argue a little bit over the slope, or disagree a little bit 
over the slope. I think this might be one of the areas where we 
take a little bit different perspective on the slope of the 
curve. That is, based primarily on the discussions of 
congressional staff that have been leading the consultation 
effort and the 25 or so teams that have been formed here on the 
House side, our sense is, the consultations aren't going nearly 
as well as they could have.
    And there's a couple of things to keep in mind here. First 
is that the number of agencies that have not produced strategic 
plans is still, in our view, a little bit high. We're still 
dealing with half a dozen or so agencies that haven't been able 
to produce a strategic plan. For example, the Environmental 
Protection Agency, although it's produced parts of it, says it 
won't be able to get the Hill a complete plan until July, which 
doesn't leave an awful lot of time for consultations.
    The thing to keep in mind is that the strategic planning 
requirement and the consultation requirement does not sneak up 
on agencies. GPRA was passed in July 1993. They've known for 
3\1/2\ years that this requirement was going to be coming on 
board and, clearly, probably wouldn't have made an awful lot of 
sense to get up there, you know, 2 weeks after the act was 
passed. But it's a little bit of concern that there's such a 
rush to complete here within the final weeks before Congress 
goes out on the August recess in order to get these 
consultations completed.
    The other thing that's a bit of concern for us, and Mr. 
Stevens touched on this in the testimony that he had before 
your subcommittee back in March, when we talked about how there 
is a--based on the views that--of agency staff and 
congressional staff that we were finding some very different 
perspectives and what the consultation process ought to entail.
    The congressional staff and Congress generally was looking 
for a much deeper, much more innervative, much more give-and-
take process in consultations. We're not seeing yet an awful 
lot of that understanding penetrating within the agencies. 
There seems to be too much still of a view, if we come up and 
have a couple of briefings, then, well, we've checked that off, 
let's go to the next box on the mark.
    By no means is this universal. Some of the agencies--and 
we're hearing that they're having some real good consultations 
both from the agency's perspective and the Hill perspective, 
but there's just too much still, I think, in that category of 
where there's going to be a rush to complete, and we're not 
going to get the full effect that we could have gotten from the 
consultation process.
    Mr. Horn. I remember that old adage that the only 
difference between an A student and an F student is that the F 
student forgot it before the exam. And I expect that some are 
going back and saying, well, we've done that, and, as you say, 
check it off; we don't have to see those people for another 6 
months or another year. And that isn't the way it should be. 
There ought to be an open door and not, ``I gotcha.''
    But, hey, you've got problems, we've got problems. The 
Constitution makes sure we have those problems to some degree. 
And the question is, how do we get this system to work more 
effectively for the average system? And that's what our aim is.
    Now, in closing, I would like to ask, is there anything 
either side would like to say here that we haven't asked you or 
you felt you didn't get a chance to make that point? This is 
your chance to make the point.
    Mr. Koskinen. No. I would just say again that we genuinely 
appreciate the interest this committee generally and this 
subcommittee have had on this subject over time. I think it's 
an important matter.
    As Mr. Stevens noted, no matter what we tell the agencies, 
we, by ourselves, aren't going to be able to move the ball 
forward as far as we need to. We need your continued 
involvement. We need the broadest involvement from the Congress 
that we can in a bipartisan way, and I think thus far we're 
comforted by the bipartisan nature of the dialog.
    But I think this is a joint venture we're engaged in, and I 
would just close with the same point I've made several times, 
and that is that we need to drive to as much perfection as we 
can get in September, but it's a little like your A student/F 
student notation, we shouldn't all bet on October 1st and 
figure, oh, we'll go on to the next issue. This is part of a 
dialog that needs to be held on a regular basis over a long 
period of time.
    Mr. Horn. Yes. I suspect you've got a lot of people in 
Government who were around with Jimmy Carter and his budgeting 
proposal, and some even with McNamara and PPBS and those 
budgeting proposals, they're saying this too shall pass. But 
this, too, isn't going to pass; it's written into law. There's 
certainly a commitment in both parties--in both Houses that 
this shall be the law, and it isn't because it's some punitive 
thing, it's because it makes sense, and the New Zealanders and 
the Oregonians have already proved that it works. So we'll see 
what Canada does in its elections, and we'll see what Britain 
is now going to do. Maybe even the French are going to get on 
board.
    Does GAO have any closing comments?
    Mr. Stevens. Just that we stand ready, Mr. Chairman, to 
assist not only this committee, which has had a long and very 
productive history and concern about the Results Act, but also 
the authorizing and appropriations committees that are now 
beginning to take notice of it. Our interest, concern, and 
involvement is not limited to the Federal management issues 
group here, but throughout GAO. In all of our issue areas are 
people concerned about what executive agencies are producing 
and are ready to help Congress evaluate that.
    Mr. Horn. Well, you've done an excellent job in your 
report, as you always do, and we thank you and your staff for 
preparing that. It's been immensely helpful.
    Let me just--and I might say to the gentleman who is deputy 
director for management, your Duke education has survived you 
through another congressional hearing. I congratulate you.
    I want to thank the following people that helped prepare 
this hearing, starting with Russell George, against the wall 
there, staff director and counsel for the Government Management 
Information, and Technology Subcommittee; Jane Cobb we're 
delighted to have with us, the professional staff member of the 
full committee and specialist on management issues; Matt Ryan, 
professional staff member on our subcommittee; John Hynes, 
professional staff member on our subcommittee; and Andrea 
Miller, our clerk that makes sure these hearings work.
    And then on the Democratic side Mark Stephenson, 
professional staff member; Jean Gosa, the clerk for the 
minority, our two committee reporters of debates, Vicky 
Stallsworth and Mindi Colchico. And we have three interns 
working on this hearing: Melissa Holder, Grant Newman, and 
Michael Presicci. So we thank the interns. This is the time 
Congress gets free labor in violation of all the laws.
    So thank you all, and the meeting is adjourned.
    [Whereupon, at 12 noon, the subcommittee was adjourned.]
    [Additional information submitted for the hearing record 
follows:]
[GRAPHIC] [TIFF OMITTED] 45062.032

[GRAPHIC] [TIFF OMITTED] 45062.033

[GRAPHIC] [TIFF OMITTED] 45062.034

[GRAPHIC] [TIFF OMITTED] 45062.035

                                   - 

</pre></body></html>
